APPENDICES

1a

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-50518

DOCTOR JOSEPH A. ZADEH; JANE DOE, Patient,
Plaintiffs-Appellants
v.
MARI ROBINSON, in her individual capacity and in
her official capacity; SHARON PEASE, in her individual capacity; KARA KIRBY, in her individual capacity,
Defendants-Appellees

Appeals from the United States District Court
for the Western District of Texas

ON PETITION FOR REHEARING EN BANC
Before: JOLLY, SOUTHWICK, and WILLET, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
No member of the panel nor judge in regular active service requested that the court be polled on rehearing en banc. The petition for rehearing en banc is
therefore DENIED. See FED. R. APP. P. and 5th Cir. R.
35. Treating the petition for rehearing en banc as a

2a

petition for panel rehearing, the petition is
GRANTED. We withdraw our prior opinion, Zadeh v.
Robinson, 902 F.3d 483 (5th Cir. 2018), and substitute
the following.
The Texas Medical Board executed an administrative subpoena on Dr. Joseph Zadeh’s medical office.
Thereafter, Dr. Zadeh and one of his patients sued
several Board members under 42 U.S.C. § 1983,
claiming that the Board’s actions violated the Fourth
Amendment. The district court partially granted the
defendants’ motion to dismiss and later granted their
motion for summary judgment rejecting all remaining
claims. We AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff Dr. Joseph Zadeh appeals the dismissal
of his Section 1983 claim against several members of
the Texas Medical Board who he claims violated his
constitutional rights through a warrantless search of
his office and medical records. Dr. Zadeh, an internal
medicine doctor, owns and operates a medical practice
in Euless, Texas. One of his patients, Jane Doe, is also
a plaintiff-appellant in this case.
Dr. Zadeh was the subject of an administrative
proceeding before the State Office of Administrative
Hearings (‘‘SOAH’’) for violations of the Board’s regulations. The Drug Enforcement Agency (‘‘DEA’’) also
was investigating him. Indeed, it appears the Board
first learned about allegations against Dr. Zadeh
when the DEA filed a complaint with the Board about
his prescribing practices in September 2013. The DEA
investigator emailed a representative of the Board,
stating, ‘‘I’m at a point in the criminal case that I need
to interview Dr. Zadeh and review his patient files.’’
The Board then initiated an investigation.

3a

As part of this investigation, Defendants Sharon
Pease and Kara Kirby, who were investigators with
the Board, served an administrative subpoena on Dr.
Zadeh on October 22, 2013. The subpoena had the
electronic signature of Defendant Mari Robinson, who
was the Executive Director of the Board. The subpoena was for the immediate production of the medical records of sixteen of Dr. Zadeh’s patients. Two
DEA agents who were investigating related criminal
allegations accompanied Kirby and Pease.
The district court found the ‘‘facts surrounding the
execution of the subpoena’’ to be ‘‘largely undisputed.’’
Dr. Zadeh was not present when the investigators arrived. The subpoena was handed to the doctor’s assistant. The investigators sat in the medical office waiting room to give the doctor time to appear. While they
waited, the assistant spoke on the phone with Dr. Zadeh, his lawyer, and his brother who also is a lawyer.
The assistant testified that after these calls had occurred but no permission to proceed had been given,
the investigators told her they would suspend Dr. Zadeh’s license if the records they sought were not produced. The investigators admit something was said
that was akin to a promise of some vague ‘‘disciplinary
action.’’ What was said at that point is at least unclear. The assistant eventually complied, taking the
defendants into a conference room and delivering the
requested records to them. Although most of their
time was spent inside the public waiting area or conference room, the investigators also approached the
medical assistant to ask for help while she was in
exam rooms and later in a storage room.
As a result of that search, Dr. Zadeh and his patient, Jane Doe, sued Robinson, Pease, and Kirby in
their individual capacities and Robinson in her official
capacity in the United States District Court for the

4a

Western District of Texas. They alleged the defendants’ actions violated their Fourth Amendment, due
process, and privacy rights. The plaintiffs sought
monetary damages under 42 U.S.C. § 1983 as well as
declaratory relief. The defendants moved to dismiss
the claims on these grounds: (1) the plaintiffs lacked
standing; (2) the Younger abstention doctrine barred
the requests for declaratory relief; (3) the claim
against Robinson in her official capacity was barred
by the doctrine of sovereign immunity; (4) the doctrine
of qualified immunity applied to the claims against
the defendants in their individual capacities.
In ruling on the motion to dismiss, the district
court held Dr. Zadeh had standing to pursue declaratory relief, but Jane Doe did not. Nonetheless, the district court concluded that ‘‘the Younger abstention
doctrine require[d] [it] to abstain from adjudicating
Plaintiff Zadeh’s claims for declaratory relief.’’ The
district court also held that sovereign immunity
barred the plaintiffs’ claims for monetary damages
against Robinson in her official capacity. Finally, the
court concluded that the defendants were entitled to
qualified immunity for the privacy and due process
claims. The only part of the suit left, then, was Dr.
Zadeh’s claim that the defendants violated his clearly
established Fourth Amendment rights during the
search of his office.
The defendants moved for summary judgment on
‘‘whether Defendants exceeded their statutory subpoena authority by searching and inspecting Plaintiff’s office and records.’’ Although the plaintiffs alleged that the investigators performed a thorough
search of Dr. Zadeh’s office, the district court found
that the record did not support this allegation. Instead, the district court determined that the ‘‘Defendants’ presence at Plaintiff’s office was solely to execute

5a

the subpoena instanter.’’ The district court also held
that Robinson was not liable as she neither affirmatively participated in the alleged search nor implemented unconstitutional policies that caused the alleged constitutional deprivation. Further, there was
‘‘no evidence Defendants Pease and Kirby inspected
Plaintiff’s office or searched his records.’’ The plaintiffs timely appealed.
DISCUSSION
The plaintiffs appeal both the order granting the
motion to dismiss in part and the order granting the
motion for summary judgment. Although we review
both de novo, a different legal standard applies to
each:
In the former, the central issue is whether, in
the light most favorable to the plaintiff, the
complaint states a valid claim for relief. In the
latter, we go beyond the pleadings to determine whether there is no genuine issue as to
any material fact and that the movant is entitled to judgment as a matter of law.
St. Paul Mercury Ins. Co. v. Williamson, 224 F.3d 425,
440 n.8 (5th Cir. 2000) (citations omitted).
We first address the plaintiffs’ challenge to the
district court’s grant of qualified immunity, evaluating whether clearly established law prohibited the defendants’ conduct. Next, we discuss whether the district court erred in abstaining from deciding the plaintiffs’ claims for declaratory judgment. Finally, we analyze whether Robinson was liable in her supervisory
capacity.

6a

I.

Grant of qualified immunity
‘‘The doctrine of qualified immunity protects government officials from civil damages liability when
their actions could reasonably have been believed to
be legal.’’ Morgan v. Swanson, 659 F.3d 359, 370–71
(5th Cir. 2011). Officials are entitled to qualified immunity ‘‘unless (1) they violated a federal statutory or
constitutional right, and (2) the unlawfulness of their
conduct was ‘clearly established at the time.’’’ District
of Columbia v. Wesby, 138 S.Ct. 577, 589, 199 L.Ed.2d
453 (2018) (quoting Reichle v. Howards, 566 U.S. 658,
664 (2012)).
Using this framework, we analyze the plaintiffs’
arguments that clearly established law prohibited the
defendants’ execution of the subpoena instanter. The
plaintiffs offer two theories for why the defendants’
conduct was unconstitutional. First, they argue it was
a warrantless search that did not satisfy the administrative exception. Second, they argue it was a pretextual search and thus unconstitutional.
a. Warrantless search
The plaintiffs argue the Board violated the Fourth
Amendment when it demanded immediate compliance with its administrative subpoena. We have previously considered a challenge to a subpoena instanter
executed by the Texas Medical Board. See Cotropia v.
Chapman, 721 F. App’x 354 (5th Cir. 2018). In that
nonprecedential opinion, we held: ‘‘Absent consent,
exigent circumstances, or the like, in order for an administrative search to be constitutional, the subject of
the search must be afforded an opportunity to obtain
precompliance review before a neutral decisionmaker.’’ Id. at 358 (quoting City of Los Angeles v.
Patel, 135 S. Ct. 2443, 2452 (2015)).

7a

In that case, the physician at the center of a Board
investigation pled sufficient facts to overcome qualified immunity. Id. at 361. The doctor alleged that a
Board member ‘‘violated the clearly established right
to an opportunity to obtain precompliance review of
an administrative subpoena before a neutral decisionmaker’’ when he took documents from the physician’s office over objections from the office receptionist. Id. at 357. Relying on Supreme Court precedent,
we held that it was clear at the time that ‘‘prior to
compliance, Cotropia was entitled to an opportunity
to obtain review of the administrative subpoena before a neutral decisionmaker.’’ Id. at 358 (citing See v.
City of Seattle, 387 U.S. 541, 545 (1967); Donovan v.
Lone Steer, Inc., 464 U.S. 408, 415 (1984)). Similarly,
the demand to turn over Dr. Zadeh’s medical records
immediately did not provide an opportunity for precompliance review. We agree, then, that a requirement of precompliance review in many, if not most,
administrative searches had been clearly established
by Supreme Court precedent prior to the search here.
The defendants acknowledge this law but maintain there was no constitutional violation because this
search fell into an exception to the general rule requiring precompliance review. We next examine that argument.
i. Closely regulated industry
No opportunity for precompliance review is
needed for administrative searches of industries that
‘‘have such a history of government oversight that no
reasonable expectation of privacy’’ exists for individuals engaging in that industry. Marshall v. Barlow’s,
Inc., 436 U.S. 307, 313 (1978). Even so, warrantless
inspections in closely regulated industries must still

8a

satisfy three criteria: (1) a substantial government interest, (2) a regulatory scheme that requires warrantless searches to further the government interest, and
(3) ‘‘a constitutionally adequate substitute for a warrant.’’ New York v. Burger, 482 U.S. 691, 702–03
(1987) (quoting Donovan v. Dewey, 452 U.S. 594, 603
(1981)).
Cotropia did not resolve whether the Board’s use
of administrative subpoenas satisfied the Burger criteria because the issue was not raised until oral argument. Cotropia, 721 F. App’x at 360 & n.6. As a result,
the panel’s holding was expressly limited to concluding that the Board’s demand for immediate compliance with the subpoena did not satisfy the general administrative exception to the warrant requirement.
The argument has timely been raised here, though.
Thus, we must discuss whether the Burger exception
permitted the Board’s administrative subpoena and
whether that law was clearly established at the time
of its execution.
To categorize industries under Burger, courts consider the history of warrantless searches in the industry, how extensive the regulatory scheme is, whether
other states have similar schemes, and whether the
industry would pose a threat to the public welfare if
left unregulated. See Burger, 482 U.S. at 704; Patel,
135 S. Ct. at 2454. The defendants characterize the
relevant industry in two different ways. We evaluate
first whether the practice of medicine is a closely regulated industry and then whether the practice of prescribing controlled substances is closely regulated.
Acknowledging that the medical profession is subject to close oversight, the district court emphasized
the absence of a history of warrantless inspections to
conclude that the medical profession was not a closely
regulated industry. Important to its conclusion was

9a

the confidential nature of the doctor-patient relationship: ‘‘It strains credibility to suggest that doctors and
their patients have no reasonable expectation of privacy.’’ On appeal, the defendants all but concede that
there is not a lengthy history of warrantless searches.
They instead emphasize the extensive regulatory
scheme governing the practice of medicine and the
risk that the industry could pose to the public welfare.
There is no doubt that the medical profession is
extensively regulated and has licensure requirements. Satisfying the Burger doctrine requires more.
The Supreme Court instructs ‘‘that the doctrine is essentially defined by ‘the pervasiveness and regularity
of the federal regulation’ and the effect of such regulation upon an owner’s expectation of privacy.’’
Burger, 482 U.S. at 701 (quoting Dewey, 452 U.S. at
605–06). Another key factor is ‘‘the duration of a particular regulatory scheme.’’ Id. (quoting Dewey, 452
U.S. at 606).
The Board cites several laws or regulations governing the behavior of doctors. Outside of citing
Texas’s licensure requirement for physicians, the regulations the Board cites do not apply to the entire
medical profession. Instead, they target the practice
of prescribing controlled substances. As examples, the
Board states that doctors must register with the DEA
to prescribe controlled substances, TEX. HEALTH &
SAFETY CODE § 481.061; that prescriptions of controlled substances are monitored by several law enforcement agencies, id. §§ 481.067, 481.075, 481.076;
and that pain management clinics must register as
such, which allows the Board to inspect them from
time to time, TEX. OCC. CODE §§ 168.101, 168.052; 37
Tex. Reg. 10079, 10079–80 (2012), adopted 38 Tex.
Reg. 1876, 1876–77 (2013), amended 39 Tex. Reg. 297,
297–98 (2014) (former 22 TEX. ADMIN. CODE § 195.2);

10a

35 Tex. Reg. 1924, 1925–26 (2010), adopted 35 Tex.
Reg. 3281, 3281–82 (2010), amended 43 Tex. Reg. 768,
768–74 (2018) (former 22 TEX. ADMIN. CODE § 195.3).
The Board also refers us to laws and regulations that
similarly regulate anesthesia. These, though, do not
amount to pervasiveness and regularity of regulation
over the medical industry as a whole as Burger requires. Instead, only specific groups of doctors may
have been put on notice that the Board may perform
some inspections.
We also do not see in the medical profession an
entrenched history of warrantless searches. Its absence is relevant, though not dispositive, to our issue.
Burger, 482 U.S. at 701. For example, when the Court
held that the liquor industry was closely regulated, it
mentioned that English commissioners could inspect
brewing houses on demand in the 1660s, and that
Massachusetts passed a similar law in 1692. Colonnade Catering Corp. v. United States, 397 U.S. 72, 75
(1970). It then referred to a 1791 federal law that has
continued in various forms, permitting federal officers
to perform warrantless searches of distilleries and imposing an excise tax on distilled liquor. Id. Because
the focus there was ‘‘the liquor industry long subject
to close supervision and inspection,’’ the Court concluded that the Fourth Amendment did not prohibit
the warrantless searches authorized by Congress. Id.
at 77. Here, there is no such history.
In considering the reasonable expectation of privacy, we also consider the sensitive nature of medical
records. The Ninth Circuit explained that ‘‘the theory
behind the closely regulated industry exception is that
persons engaging in such industries, and persons present in those workplaces, have a diminished expectation of privacy.’’ Tucson Woman’s Clinic v. Eden, 379
F.3d 531, 550 (9th Cir. 2004). We agree with that

11a

court’s observation that in medical contexts, the expectation of privacy likely is heightened. Id.
Admittedly, federal regulations do exempt the
Board from the privacy requirements of the Health Insurance
Portability
and
Accountability
Act
(‘‘HIPAA’’). 45 C.F.R. § 164.512. Further, the Board
cites Texas laws providing that where the Board does
obtain information, it is subject to confidentiality requirements. See TEX. OCC. CODE §§ 159.002;
159.003(a)(5); 164.007(c). That HIPAA permits disclosure to the Board and that the regulations governing
the Board continue to protect that information from
disclosure does not mean that the Board is entitled to
access to that information through an administrative
search without allowing an opportunity for precompliance review.
We conclude, then, that the medical industry as a
whole is not a closely regulated industry for purposes
of Burger. Still, even if the medical profession at large
cannot be said to fall within these Burger factors, it is
possible that a subset, such as those who prescribe
controlled substances, would do so. Because the parties focus their analysis of whether there is a closely
regulated industry on the medical profession as a
whole and not on pain management clinics, we assume only for purposes of our analysis today that pain
management clinics are part of a closely regulated industry and that Dr. Zadeh was operating such a clinic
even if his clinic was not certified as one. Such assumptions are appropriate in this case because ultimately our resolution turns on whether the relevant
law was clearly established. At this point, we can at
least say that the law was not clearly established
whether pain management clinics are part of a closely
regulated industry. The remaining relevant law, established with clarity or not, is analyzed below.

12a

ii. Burger exception requirements
Even were we to accept the defendants’ argument
that doctors prescribing controlled substances are engaging in a closely regulated industry with less reasonable expectations of privacy, administrative
searches of such industries still must satisfy the three
Burger criteria. There is no meaningful dispute in this
case as to the first two factors, namely, that the State
has a substantial interest in regulating the prescription of controlled substances and that the inspection
of a doctor’s records would aid the Government in regulating the industry. We thus analyze only whether
the statutory scheme is a proper substitute for a
search warrant. The Board relies on its authority to
issues subpoenas and to inspect pain management
clinics. The principal response from plaintiffs is that
neither provides a constitutionally adequate substitute for a warrant.
In order for a warrant substitute authorized by
statute to be constitutionally adequate, ‘‘the regulatory statute must perform the two basic functions of a
warrant: it must advise the owner of the commercial
premises that the search is being made pursuant to
the law and has a properly defined scope, and it must
limit the discretion of the inspecting officers.’’ Burger,
482 U.S. at 703. The relevant statute provides: ‘‘The
board may issue a subpoena or a subpoena duces tecum to compel the attendance of a witness and the
production of books, records, and documents.’’ TEX.
OCC. CODE. § 153.007(a). The Board argues that the
statute, when considered with the following regulation, limits the discretion of the officials. The regulation provides that after a ‘‘request by the board or
board representatives, a licensee shall furnish to the
board copies of medical records or the original records
within a reasonable time period, as prescribed at the

13a

time of the request.’’ 22 TEX. ADMIN. CODE § 179.4(a).
The regulation defines ‘‘reasonable time’’ as ‘‘fourteen
calendar days or a shorter time if required by the urgency of the situation or the possibility that the records may be lost, damaged, or destroyed.’’ Id.
The district court held that a search using the
Board’s subpoena authority did not satisfy the third
factor of the Burger test as it was ‘‘purely discretionary,’’ allowing the Board ‘‘to choose which doctors to
subpoena and to do so at a frequency it determines.’’
To evaluate that holding, we consider the limits that
do exist: only licensees are subject to the subpoena;
only medical records must be produced; and it is the
Board or its representatives who will be asking for the
records. As the district court stated, though, there is
no identifiable limit on whose records can properly be
subpoenaed.
As to inspections of pain management clinics, the
Board argues that some limits to its authority are set
by the statute permitting it to inspect pain management clinics. Specifically, the statute allows it to examine ‘‘the documents of a physician practicing at the
clinic, as necessary to ensure compliance with this
chapter.’’ TEX. OCC CODE. § 168.052(a). Providing
more specific guidance, the regulation in effect at the
time provided:
The board may conduct inspections to enforce
these rules, including inspections of a pain
management clinic and of documents of a physician’s practice. The board may contract with
another state agency or qualified person to
conduct these inspections.
35 Tex. Reg. 1925, 1925–26 (2010), adopted 35 Tex.
Reg. 3281, 3281–82 (2010), amended 43 Tex. Reg. 768,
768–74 (2018) (former 22 TEX. ADMIN. CODE § 195.3).

14a

The district court found this inspection authority,
like the subpoena authority, to be ‘‘purely discretionary.’’ The governing criteria for an inspection is that
the target be a pain management clinic, that the
Board performs the inspection, and that the purpose
for the search be to determine compliance with pain
management rules. We agree with the district court,
though, that these requirements suffered from the
same fatal Burger flaw as the subpoena authority:
they did not limit how the clinics inspected are chosen.
In summary, there are insufficient limits on the
discretion of the Board to satisfy the Burger requirements, whether considering the medical profession in
general or as to pain management clinics. What is left
is the question of whether the law on these points was
clearly established and, regardless, whether the
search was invalid as pretextual.
iii. Clearly established law for qualified
immunity
To summarize, we have concluded there was a violation of Dr. Zadeh’s constitutional rights. That is
true even with our twin assumptions that pain management clinics are part of a closely regulated industry and that Dr. Zadeh operated a pain management
clinic. Nonetheless, the defendants are entitled to
qualified immunity unless the constitutional requirements they violated were clearly established at the
time of their actions. Reichle, 566 U.S. at 664. We hold
that it was clearly established at the time of this
search that the medical profession as a whole is not a
closely regulated industry, meaning that governmental agents violate the Constitution when they search
clinics that are not pain management clinics without
providing an opportunity for precompliance review.
We also hold, even assuming that pain management

15a

clinics are part of a closely regulated industry, that
ondemand searches of those clinics violate the constitution when the statutory scheme authorizing the
search fails to provide sufficient constraints on the
discretion of the inspecting officers. We need to analyze, though, whether that last statement of law was
clearly established when this search occurred.
Our analysis of the clarity of relevant law is objective, meaning it does not focus on the specific defendants’ knowledge. ‘‘The touchstone of this inquiry is
whether a reasonable person would have believed that
his conduct conformed to the constitutional standard
in light of the information available to him and the
clearly established law.’’ Goodson v. City of Corpus
Christi, 202 F.3d 730, 736 (5th Cir. 2000). ‘‘[E]ven law
enforcement officials who ‘reasonably but mistakenly
[commit a constitutional violation]’ are entitled to immunity.’’ Glenn v. City of Tyler, 242 F.3d 307, 312–13
(5th Cir. 2001) (quoting Goodson, 202 F.3d at 736).
For the law to be clearly established, there must be a
close congruence of the facts in the precedent and
those in the case before us. Wesby, 138 S. Ct. at 589–
90. ‘‘The precedent must be clear enough that every
reasonable official would interpret it to establish the
particular rule the plaintiffs seek to apply.’’ Id. at 590.
Defendants rely on one of our precedents that reviewed an administrative search of a dentist’s office
by agents of the Texas State Board of Dental Examiners, accompanied by Department of Public Safety officials. Beck v. Tex. State Bd. of Dental Exam’rs, 204
F.3d 629, 632 (5th Cir. 2000). Dentist Beck was a target because of complaints filed against him for prescribing controlled substances. Id. We concluded that
the search did not violate the plaintiff’s clearly established rights. Id. at 638–39. We applied the Burger exception and determined there was a significant state

16a

interest in regulating dentists’ use of controlled substances; the search was conducted pursuant to two
regulatory schemes; and there was an adequate substitute for a warrant where the statute permitted the
official to conduct inspections during ‘‘reasonable
times’’ after ‘‘stating his purpose’’ and presenting his
credentials to the owner. Id. at 638–39. In light of
Beck, the Board argues that reasonable investigators
could have believed the Burger exception permitted
the execution of the subpoena as they too were investigating prescriptions of controlled substances within
the medical industry.
The plaintiffs insist that Beck is ‘‘patently distinguishable’’ for the same reason argued in the separate
opinion here. The clarity of any possible distinction,
though, must be viewed through the lens that the law,
including a distinction, must be ‘‘sufficiently clear
that every reasonable official would understand that
what he is doing is unlawful’’ at that time. Wesby, 138
S. Ct. at 589 (quotation marks omitted). That means
‘‘existing law must have placed the constitutionality
of the officer’s conduct ‘beyond debate.’’ Id. Perhaps
most relevant, the ‘‘legal principle [must] clearly prohibit the officer’s conduct in the particular circumstances before him. The rule’s contours must be so well
defined that it is ‘clear to a reasonable officer that his
conduct was unlawful in the situation he confronted.’’’
Id. at 590 (emphasis added).
The claimed sufficient distinction here is that the
regulations and statutes under which the investigators in Beck acted explicitly permitted inspections
without prior notice. See Beck, 204 F.3d at 639. The
Beck court discussed that point at the end of the opinion, as it addressed several questions regarding
whether what occurred was a valid administrative
search of a closely regulated industry. Id. The final

17a

subject the court discussed was that one of the statutes under which the inspection was conducted did
not require that prior notice be given. Id. (quoting Section 5.01(c) of the Texas Controlled Substances Act.)
That is no small distinction, and we conclude today
that absent similar statutory or perhaps regulatory
authority that dispenses with prior notice, a search
such as occurred here cannot be conducted without
prior notice. The issue for us, though, is whether that
law was clearly established at the time of the search
we are reviewing today.
As we already stated, the right is not clearly established unless it is beyond debate using an objective
test. We have discussed the intricacies of New York v.
Burger, which permit warrantless searches when they
satisfy a three-factor test. Our Beck decision held that
the search there was of a closely regulated industry,
and therefore went through the three Burger factors.
The discussion of the specific statutory authorization
for no-notice inspections was to show that the third
Burger factor was satisfied, which is that an adequate
substitute for a warrant existed. We did not say in
Beck that the only sufficient substitute under Burger
was a statute authorizing no-notice searches. We did
hold that ‘‘under these circumstances, Beck does not
show a violation of a clearly established constitutional
right.’’ Beck, 204 F.3d at 639.
Instead of clearly establishing the principle that
prior notice of a regulatory search must be given unless the authorizing statute explicitly announces it is
unnecessary, Beck applied the general Burger principle to the facts of that case that a warrant substitute
authorized by a ‘‘regulatory statute must perform the
two basic functions of a warrant: it must advise the
owner of the commercial premises that the search is
being made pursuant to the law and has a properly

18a

defined scope, and it must limit the discretion of the
inspecting officers.’’ Burger, 482 U.S. at 703. In the
Beck situation, that factor was satisfied with the statutory language already discussed. We cannot see,
though, that every reasonable official prior to conducting a search under the circumstances of this case
would know this Burger factor was not satisfied. We
think some, even many, reasonable officers would believe under the third Burger factor that the owner of
the premises was charged with knowledge that a statute authorized the search, and the officers would reasonably believe the scope of the search and the discretion of the officials was validly limited. We have held
that the statute fails this standard, but we do not hold
that all reasonable officers would have known that,
until now.
Therefore, although Beck does not control the constitutionality of the Board’s actions in this case, it
does weigh in favor of the defendants’ receiving qualified immunity. We find more guidance from cases
where a statute did not clearly limit the official’s discretion in selecting who would be subject to an administrative search. In one, we held that the statute provided a constitutionally adequate substitute for a warrant where the statute provided:
The licensing agency shall make or cause to be
made inspections relative to compliance with
the laws and regulations governing the licensure of child care facilities. Such inspections
shall be made at least once a year but additional inspections may be made as often as
deemed necessary by the licensing agency.
See Ellis v. Miss. Dep’t of Health, 344 F. App’x 43 (5th
Cir. 2009) (citing MISS. CODE. ANN. § 43-20-15).
Though that opinion is not precedential, we agree
with its reasoning.

19a

We also upheld an administrative search where,
despite limits on the conduct of an officer after a traffic stop, there were not clear limits on an officer’s discretion as to whom to stop. See United States v. Fort,
248 F.3d 475, 482 (5th Cir. 2001). Because we have
not so far required there to be a clear limit on determining whom officials select for an administrative
search, the defendants reasonably could have believed
that the administrative scheme here provided a constitutionally adequate substitute for a warrant.
Finally, the plaintiffs argue that even if qualified
immunity might apply to defendants who conducted a
proper search, the defendants did not follow the statutory scheme. Therefore, they assert, caselaw in
which the legal requirements for the search were followed is inapplicable. The claims of overstepping authority, though, are minor. First, while the medical
assistant was waiting for Dr. Zadeh to appear, there
is evidence one of the investigators approached the assistant at her desk, then followed her into two exam
rooms. While in one of the rooms, the investigator
asked if controlled substances were kept in the room.
Second, there is evidence this same investigator also
approached the assistant while the latter was in a
storage room and asked if the investigators could use
the medical office’s copy machine. The district court
said there was no evidence the investigator ever
looked at any files or went somewhere in the medical
office without the assistant. Finally, as soon as the investigators were asked to leave the office, they did so.
We agree with the district court that there is ‘‘no support in the record’’ to sustain the allegation the investigators did a ‘‘thorough search and inspection.’’ The
factual basis for deviations from search protocols is insubstantial.

20a

In conclusion, the unlawfulness of the defendants’
conduct was not clearly established at the time of the
search.
b. Pretextual searches
The plaintiffs also argue that the search was a
pretext for uncovering evidence of criminal wrongdoing, not a valid administrative search. According to
the plaintiffs, the DEA brought Dr. Zadeh’s possible
misdeeds before the Medical Board. A DEA agent then
was present during the search. To finish the story,
though, the Medical Board proceeded against Dr. Zadeh. Before there was a full hearing on the merits, the
Board entered an agreed order. In the order, the panel
found that Dr. Zadeh was operating a pain management clinic without registering it. There is nothing in
this record indicating whether the DEA’s investigation resulted in a criminal prosecution or any other
action.
‘‘Even under a valid inspection regime, the administrative search cannot be pretextual.’’ Club Retro,
LLC v. Hilton, 568 F.3d 181, 197 (5th Cir. 2009). It is
incorrect, though, to use the label ‘‘pretext’’ simply because of an overlap between an administrative search
and a criminal search. The Burger Court remarked
that ‘‘a State can address a major social problem both
by way of an administrative scheme and through penal sanctions.’’ Burger, 482 U.S. at 712. To determine
whether the search there was constitutional, the
Court looked to whether the administrative scheme
really ‘‘authorize[ d] searches undertaken solely to uncover evidence of criminality.’’ Id.
Similarly, the Supreme Court dismissed a defendant’s argument ‘‘that because the Customs officers
were accompanied by a Louisiana State Policeman,
and were following an informant’s tip that a vessel in

21a

the ship channel was thought to be carrying marijuana,’’ the Government could not rely on the administrative search exception. United States v. VillamonteMarquez, 462 U.S. 579, 584 n.3 (1983).
We have applied these principles to a search of an
automobile salvage yard. United States v. Thomas,
973 F.2d 1152, 1155–56 (5th Cir. 1992). There, an investigator with the Texas Department of Public
Safety tracked a vehicle to an auto salvage business
and there conducted an inventory inspection under
Texas statute. Id. at 1155. Even though the inventory
inspection was prompted by suspicion of criminal conduct, the investigator still was entitled to use information gained during the inspection to obtain a
search warrant for the salvage-yard owner’s residence. Id. ‘‘Administrative searches conducted pursuant to valid statutory schemes do not violate the Constitution simply because of the existence of a specific
suspicion of wrongdoing.’’ Id. at 1155–56.
Beck has similar analysis. As here, the administrative search in Beck was initiated after a tip. Dental
Board member Michael Pitcock ‘‘stated in his deposition that information was forwarded to him alleging
that Beck had ordered unusually high volumes of controlled substances.’’ Beck, 204 F.3d at 632. The Dental
Board suspected Beck of violating criminal statutes,
and a law enforcement officer accompanied the board
agent in its inspection of the dental office. Id. The dentist argued that the search was conducted to uncover
criminal wrongdoing and thus was not conducted pursuant to a valid administrative scheme. Id. at 638. We
held that the suspicions of criminal wrongdoing ‘‘did
not render the administrative search unreasonable,’’
citing Villamonte-Marquez and Thomas. Id. at 639.
As to Dr. Zadeh, the DEA was closely involved
with the Board’s investigation. Under Burger, though,

22a

we look to whether the search that occurred was under a scheme serving an administrative purpose. The
Board’s purpose is demonstrated by the subsequent
administrative action against Dr. Zadeh. The search
was not performed ‘‘solely to uncover evidence of criminality.’’ See Burger, 482 U.S. at 698. Thus, the search
was not pretextual.
II.

Declaratory Judgment
Dr. Zadeh argues that the district court erred in
abstaining from deciding the declaratory judgment
claims following Younger. Dr. Zadeh asked the district
court to make declaratory judgments on several laws
implicating the Board. The district court did not resolve any.
‘‘In Younger, the Supreme Court ‘instructed federal courts that the principles of equity, comity, and
federalism in certain circumstances counsel abstention in deference to ongoing state proceedings.’’’
Wightman v. Tex. Supreme Court, 84 F.3d 188, 189
(5th Cir. 1996) (citations omitted). Following Supreme
Court precedent, this court follows ‘‘a three-part test
describing the circumstances under which abstention
[is] advised: (1) the dispute should involve an ‘ongoing
state judicial proceeding;’ (2) the state must have an
important interest in regulating the subject matter of
the claim; and (3) there should be an ‘adequate opportunity in the state proceedings to raise constitutional
challenges.’’’ Id. (citation omitted).
The district court applied the reasoning of one of
our unpublished cases, Perez v. Tex. Med. Bd., 556 F.
App’x 341 (5th Cir. 2014). There, we held that
Younger barred the plaintiffs’ suit seeking to enjoin
the Board from pursuing any causes of action against
them. Id. at 342–43. We agree with that panel’s deter-

23a

mination that Texas had a strong interest in regulating the practice of medicine, and the Perez plaintiffs
could raise their constitutional challenges in the state
court because the law provided for judicial review of
the administrative decision. Id. at 342. Following Perez, the district court concluded that Dr. Zadeh had an
ongoing administrative action pending; the state had
a significant interest in regulating medicine in Texas;
and Dr. Zadeh could appeal his administrative action
in state court and raise constitutional challenges
there. Accordingly, the district court abstained from
adjudicating the requests for declaratory relief.
Dr. Zadeh claims Younger is inapplicable because
the Board argued that the lawsuit did not implicate
the underlying investigation. Dr. Zadeh also argues
that there will be no adequate opportunity in the state
proceedings to raise any constitutional challenges. He
claims that ‘‘[d]octors do not have the power to file an
appeal concerning the findings of fact and conclusions
of law contained in a final decision (but the TMB
does).’’
Dr. Zadeh was subject to an ongoing state administrative proceeding, and that qualifies as a judicial
proceeding for this analysis. See Middlesex Cnty. Ethics Comm. v. Garden State Bar Ass’n, 457 U.S. 423,
432 (1982). As we stated in Perez, Texas has a strong
interest in regulating the practice of medicine. Finally, despite plaintiffs’ contrary view, Texas law does
permit judicial review by either party of an administrative decision.1 ‘‘A person who has exhausted all administrative remedies available within a state agency

1

The plaintiffs note that the administrative law judge in the
SOAH proceeding declined to address the constitutional questions. Even so, all the law requires is that the issue have been

24a

and who is aggrieved by a final decision in a contested
case is entitled to judicial review under this chapter.’’
TEX. GOV’T CODE. § 2001.171.
The district court did not abuse its discretion in
abstaining from deciding the declaratory judgment
claims.
III.

Director Robinson’s potential supervisory
capacity liability
The plaintiffs argue that Robinson should be held
liable in her supervisory capacity. ‘‘A supervisory official may be held liable under § 1983 only if (1) he affirmatively participates in the acts that cause the constitutional deprivation, or (2) he implements unconstitutional policies that causally result in the constitutional injury.’’ Gates v. Tex. Dep’t of Protective and
Regulatory Servs., 537 F.3d 404, 435 (5th Cir. 2008).
A failure to train claim requires that the plaintiff
show (1) the supervisor’s failure to train; (2) the failure to train resulted in the violation of the plaintiff’s
rights; and (3) the failure to train shows deliberate indifference. Id. For deliberate indifference, ‘‘there must
be ‘actual or constructive notice’ ‘that a particular
omission in their training program causes . . . employees to violate citizens’ constitutional rights’ and the
actor nevertheless ‘choose[s] to retain that program.’’’
Porter v. Epps, 659 F.3d 440, 447 (5th Cir. 2011) (citation omitted).
The plaintiffs argue that Robinson improperly
delegated her subpoena authority to subordinates
whose training she knew nothing about. Therefore,
the subpoena did not comply with Texas law because
the Executive Director of the Board is not permitted
preserved for the appeal to the state court. See Ohio Civil Rights
Comm’n v. Dayton Christian Schs., Inc., 477 U.S. 619, 629 (1986).

25a

to delegate her subpoena authority. The district court
did not determine whether the delegation was permissible. ‘‘In light of the express regulatory authority for
the delegation, the precedent set by her predecessors,
and the sheer volume of subpoenas issued every year
by the TMB,’’ Robinson’s actions did not amount to deliberate indifference.
In Texas administrative law, a rule of statutory
construction presumes that where a statute grants
specific authority to a designated public officer, the
legislature intended only that officer to have that authority. Lipsey v. Tex. Dep’t of Health, 727 S.W.2d 61,
64 (Tex. App.— Austin 1987, writ ref’d n.r.e.). Still,
Lipsey recognized ‘‘the authority to ‘subdelegate’ or
transfer the assigned function may be implied and the
presumption defeated owing to the nature of the assigned function, the makeup of the agency involved,
the duties assigned to it, the statutory framework,
and perhaps other matters.’’ Id. at 65.
In this case, a statute permits the Board to subpoena records. TEX. OCC. CODE. § 153.007. Section
153.007(b) permits the Board to delegate subpoena
authority ‘‘to the executive director or the secretarytreasurer of the board.’’ By administrative rule, the
executive director may ‘‘delegate any responsibility or
authority to an employee of the board.’’ 22 TEX. ADMIN. CODE § 161.7(c).
In resolving this issue, we start with the fact the
rule articulated in Lipsey is only a presumption. Even
assuming that the plaintiffs could show that Robinson
failed to train her subordinates and that failure resulted in a constitutional violation, Robinson was not
deliberately indifferent in delegating her subpoena
authority in light of the fact she was acting pursuant
to the regulations in the same way as her predecessors
and the numerous subpoenas issued each year. To the

26a

extent the plaintiffs seek to impose Section 1983 liability on Kirby and Pease through the subdelegation
argument, that law also was not clearly established.
AFFIRMED.

DON R. WILLETT, Circuit Judge, concurring in
part, dissenting in part:
State investigators, without notice and without a
warrant, entered a doctor’s office and demanded to rifle through the medical records of 16 patients. Or else.
The doctor was not in, and the investigators, after being told that the doctor contested the subpoena,
warned his assistant that if she didn’t produce the patient files at once, there would be grave repercussions.
According to her, the investigators threatened to suspend the doctor’s medical license. They demanded
compliance—immediately.
The Fourth Amendment forbids such roughshod
rummaging. The Framers cared deeply about We the
People’s right ‘‘to be secure in [our] persons, houses,
papers, and effects against unreasonable searches and
seizures.’’1 The Fourth Amendment was the Founding
generation’s ‘‘response to the reviled ‘general warrants’ and ‘writs of assistance’ of the colonial era,
which allowed British officers to rummage through
homes in an unrestrained search for evidence of criminal activity.’’2 In fact, outrage over unchecked
searches was ‘‘one of the driving forces behind the
Revolution itself.’’3
1
2
3

U.S. CONST. amend. IV.
Riley v. California, 134 S. Ct. 2473, 2494 (2014).
Id.

27a

The majority opinion correctly diagnoses Dr. Zadeh’s injury but refuses to prescribe a remedy: His
rights were violated, but since the law wasn’t clearly
established, Dr. Zadeh loses. I originally agreed with
this violation-without-vindication result.4
But deeper study has convinced me that the officials’ constitutional misstep violated clearly established law, not a previously unknown right. And it has
reaffirmed my broader conviction that the judge-made
immunity regime ought not be immune from thoughtful reappraisal.
I
To rebut the officials’ qualified-immunity defense
and get to trial, Dr. Zadeh must plead facts showing
that the alleged misconduct violated clearly established law.5 He has done so.
A
The Supreme Court held 40-plus years ago in See
that the Fourth Amendment requires precompliance
review.6 An administrative subpoena ‘‘may not be
made and enforced by the inspector in the field . . . .’’7
Almost 20 years later, the Court in Lone Steer elaborated that although an agency ‘‘may issue an administrative subpoena without a warrant,’’ it must give
the subpoenaed person an opportunity ‘‘to question
the reasonableness of the subpoena . . . by raising objections in an action in district court’’ before suffering

4

Zadeh v. Robinson, 902 F.3d 483, 498 (5th Cir. 2018) (Willett,
J., concurring dubitante).
5
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011).
6
See v. City of Seattle, 387 U.S. 541 (1967).
7
Id. at 544-45.

28a

any penalties for noncompliance.8 The Court reaffirmed this settled precompliance-review requirement
again just four years ago in Patel.9
Here, Texas officials gave Dr. Zadeh no time to
question the subpoena’s reasonableness. That’s a violation. Plain and simple.
B
But there are exceptions to most every rule. Under the Supreme Court’s 1981 decision in Burger, officials don’t have to give people time to comply if:
• the business is part of a closely regulated
industry;
• there’s a substantial government interest;
• warrantless searches are necessary; and
• there’s a ‘‘constitutionally adequate substitute for a warrant.’’10
This search whiffs two requirements. So I agree with
the majority opinion: The Burger exception doesn’t apply.
1
Medical practices—including pain-management
clinics—aren’t ‘‘closely regulated’’ industries. In both
Burger11 and Patel,12 the Supreme Court considered
the history of warrantless searches, then-current regulations, and the public interest. Take Patel. The

8

Donovan v. Lone Steer, Inc., 464 U.S. 408, 415 (1984).
City of Los Angeles v. Patel, 135 S. Ct. 2443, 2452 (2015)
(‘‘[T]he subject of the search must be afforded an opportunity to
obtain precompliance review before a neutral decisionmaker.’’).
10
New York v. Burger, 482 U.S. 691, 702-03 (1987).
11
See id. at 704.
12
See Patel, 135 S. Ct. at 2454.
9

29a

Court held that hotels aren’t a closely regulated industry—no history of regular, warrantless searches.13
Public-accommodation laws require hotels to serve all
paying customers. That just doesn’t equate to state officials knocking down doors.14
Likewise, state officials haven’t historically rummaged through pain-management clinics without
warrants. If anything, it’s the opposite. The law has
consistently protected doctor–patient confidentiality.
In 2011, the Supreme Court in Sorrell noted that ‘‘for
many reasons, physicians have an interest in keeping
their prescription decisions confidential.’’15 Ten years
earlier, the Court in Ferguson recognized medical patients’ ‘‘reasonable expectation of privacy’’— that no
one will share their records without permission.16
It’s not just our Nation’s highest court. Lower
courts recognize this too. The district court here emphasized that ‘‘warrantless inspections of doctors’ offices’’ don’t often happen.17 In 2017, another Texas federal district court stressed a stark distinction between
medicine and ‘‘closely regulated’’ industries. The court
noted that the government has long treated liquor and
guns very differently than doctors.18

13

Id. at 2455.
Id.
15
Sorrell v. IMS Health Inc., 564 U.S. 552, 572 (2011).
16
Ferguson v. City of Charleston, 532 U.S. 67, 78 (2001).
17
Zadeh v. Robinson, No. 1:15-CV-598, Dkt. No. 40, at *10 (W.D.
Tex., Apr. 26, 2016), aff’d, 902 F.3d 483 (5th Cir. 2018).
18
Barry v. Freshour, No. H-17-1403, 2017 WL 4682176, at *6-7
(Rosenthal, J.) (S.D. Tex. Oct. 18, 2017), rev’d on other grounds,
905 F.3d 912 (5th Cir. 2018).
14

30a

True, we held in Schiffman that pharmaceuticals
are a ‘‘pervasively’’ regulated industry.19 But that was
in 1978. And the Supreme Court has since clarified
things. As the Court said in Patel, the closely-regulated-industry exception is very much that—“the exception.”20 So Schiffman doesn’t control.
In sum, the law strongly protects privacy in medicine. Pain management is a medical field. So painmanagement clinics aren’t closely regulated.
Unfortunately, the majority opinion assumes
without deciding that pain-management clinics are
closely regulated. In doing so, the majority blurs constitutional contours.21 Our legal system serves the
public best when it provides clear rules, consistently
applied—bright lines and sharp corners. We owe clarity to the courts below us, the litigants before us, and
the cases beyond us. Thankfully, our court has at least
established that medicine generally isn’t closely regulated.
2
Setting aside the ‘‘closely regulated’’ issue, the
Burger exception still doesn’t apply. The laws here
aren’t a constitutionally adequate substitute for a
warrant. In Burger, the Court explained that a statute
has to notify the public that the government can

19

United States v. Schiffman, 572 F.2d 1137, 1142 (5th Cir.
1978).
20
135 S. Ct. at 2455.
21
See discussion infra Section III.

31a

search on-demand. And it must limit officer discretion.22 These statutes neither notify nor limit.23
Our 2000 decision in Beck sheds light on what
counts for notice.24 There, the Controlled Substances
Act explicitly authorized officers to search dental offices ‘‘upon stating [their] purpose[s]’’ and showing
their credentials.25 That was clear statutory notice.
And so we upheld an on-demand search. In other
words, there had to be notice that no notice is necessary.26
Consider our 2001 opinion in Fort too.27 There, we
stamped our approval on a statute that allowed officers to inspect vehicles ‘‘after stating the purpose of the

22

Burger, 482 U.S. at 703 (“[Statutes must] perform the two
basic functions of a warrant: it must advise . . . that the search is
being made pursuant to the law and has a properly defined scope,
and it must limit the discretion of inspecting officers.”).
23
TEX. OCC. CODE § 153.007 (‘‘[T]he board may issue a subpoena
or a subpoena duces tecum to compel the attendance of a witness
and the production of books, records, and documents.’’); TEX.
OCC. CODE § 168.052 (allowing the Board to examine ‘‘the documents of a physician practicing at the clinic, as necessary to ensure compliance with this chapter’’); 22 TEX. ADMIN. CODE §
179.4 (‘‘Upon the request by the board or board representatives,
a licensee shall furnish to the board copies of medical records . . .
within a reasonable time period . . . . ’’); 22 TEX. ADMIN. CODE §
195.3 (‘‘The board may inspect a pain management clinic certified under this chapter, including the documents of a physician
practicing at the clinic, to determine if the clinic is being operated
in compliance with applicable laws and rules.’’).
24
Beck v. Tex. St. Bd. of Dental Exam’rs, 204 F.3d 629, 639 (5th
Cir. 2000).
25
Id. at 639.
26
Id. (“Thus, [the statute] did not require that prior notice be
given.”).
27
United States v. Fort, 248 F.3d 475, 482 (5th Cir. 2001).

32a

inspection.’’28 The law put Texas drivers on notice that
their cars could be searched. Eight years later in Club
Retro, we again enforced the notice requirement.29
That time, a SWAT team had raided a nightclub— replete with ‘‘physical assault, threats at gunpoint, and
prolonged detention.’’30 But the supposed authorizing
statute notified owners only of periodic fire-safety and
alcohol compliance checks.31 So we held that the
search failed to meet the notice requirement.32
Here, the statutes don’t notify business owners of
on-demand searches. These statutes allow ‘‘a reasonable time’’ to produce records.33 And they define ‘‘reasonable time’’ as ‘‘fourteen calendar days’’; less only if
there’s an emergency or a risk ‘‘that the records may
be lost, damaged, or destroyed.’’34 That’s not notice of
routine, on-the-spot searches.
Lastly, the statutes don’t limit officer discretion.
The only limits: who can subpoena things (the
Board);35 who the Board can subpoena (licensees);36

28

Id. (citing TEX. TRANSP. CODE § 644.104(b)).
Club Retro, L.L.C. v. Hilton, 568 F.3d 181, 200 (5th Cir. 2009).
30
Id.
31
Id.
32
Id.
33
TEX. ADMIN. CODE § 179.4(a).
34
Id.
35
Id. (‘‘Upon the request by the board or board representatives,
a licensee shall furnish to the board copies of medical records . . .
within a reasonable time period . . . . ’’ (emphasis added)).
36
Id. (‘‘Upon the request by the board or board representatives,
a licensee shall furnish to the board copies of medical records . . .
within a reasonable time period . . . . ’’ (emphasis added)).
29

33a

and what the Board can demand (medical records).37
But that’s it. Otherwise, there’s total discretion.
Thus, the Burger exception doesn’t apply. And so
all that’s left to decide is if the violation was clearly
established.
C
It was. Just last year in Wesby, the Supreme
Court explained that ‘‘clearly established’’ means ‘‘settled law.’’38 ‘‘[C]ontrolling authority’’ must explicitly
adopt the principle; or else there must be ‘‘a robust
consensus of cases of persuasive authority.’’39 Mere
implication from precedent doesn’t suffice.40
What’s more, the Court in Wesby reiterated that
the legal principle must be specific— not general. The
rule must ‘‘prohibit the officer’s conduct in the particular circumstances before him.”41 The Court doesn’t
require ‘‘a case directly on point.’’42 But it does require
a case ‘‘where an officer acting under similar circumstances . . . violated the Fourth Amendment.’’43

37

Id. (‘‘Upon the request by the board or board representatives,
a licensee shall furnish to the board copies of medical records . . .
within a reasonable time period . . . . ’’ (emphasis added)).
38
Wesby, 138 S. Ct. at 589 (2018) (quoting Hunter v. Bryant, 502
U.S. 224, 228 (1991) (per curiam)).
39
Id. at 590 (cleaned up) (quoting Ashcroft v. al-Kidd, 563 U.S.
731, 741–42 (2011)).
40
Id.
41
Id.
42
Id. (quoting al-Kidd, 563 U.S. at 741).
43
Id. (quoting White v. Pauly, 137 S. Ct. 548, 552 (2017) (per curiam)). But cf. discussion infra Section III.

34a

The Supreme Court in See,44 Lone Steer,45 and Patel made clear the need for precompliance review of
administrative subpoenas. That’s controlling law.
Summing up: The Board violated Dr. Zadeh’s Fourth
Amendment rights. No exception applies. And the law
was clearly established. The state officials are thus
not immune. On this basis alone, Dr. Zadeh deserves
his day in court.
II
Respectfully, I think that the majority opinion is
wrong for two reasons. First, this court shouldn’t determine whether exceptions to violations are clearly
established. Second, even if we should, Dr. Zadeh
should win anyway.
A
The majority concedes that the statutes here don’t
limit the discretion of the inspecting officers as Burger
requires. The court also acknowledges that statutes
must provide notice. Yet the court holds that these requirements weren’t—themselves—clearly established.
I understand the impulse. After all, qualified immunity is supposed to protect ‘‘all but the plainly incompetent or those who knowingly violate the law’’—
that’s what the Supreme Court remarked in Wesby.47
So if reasonably competent officers wouldn’t necessarily know that they’re violating the law, they
shouldn’t be liable. For example, the majority says
46

44

387 U.S. at 544–45.
464 U.S. at 415.
46
135 S. Ct. at 2452.
47
138 S. Ct. at 589 (quoting Malley v. Briggs, 475 U.S. 335, 341
(1986)).
45

35a

that since we haven’t yet enforced the limiteddiscretion requirement, reasonable officials could’ve
thought that the subpoena satisfied Burger. Thus,
they wouldn’t necessarily realize they’re breaking the
law.
But that hyperspecific take snubs the Supreme
Court’s time-worn test: Was there a clearly established violation?48 Yes, it’s a violation to conduct a
warrantless search without precompliance review.
Sometimes there’s an exception to this test. But not
here. No exception applies. And it’s only when an exception applies that the general rule doesn’t.
B
Yet even if we should ask whether the Burger exception was clearly established, Dr. Zadeh still ought
to win. Controlling law dictates that there must be
statutory notice.
Recall Beck. In that case, the law authorized ondemand, warrantless searches. And so we upheld the
search.49 Don’t forget Fort50 or Club Retro51 either, in
which we similarly enforced the notice requirement.
Then of course there’s Burger itself. In upholding a
warrantless search, the Supreme Court emphasized
that the statute ‘‘set[ ] forth the scope of the inspection
and, accordingly, place[d] the operator on notice as to
how to comply with the statute.’’52
Those cases control. They require statutory notice. So the Burger exception’s notice element is
48
49
50
51
52

See discussion infra Section III.
204 F.3d at 639.
248 F.3d at 482.
568 F.3d at 200.
482 U.S. at 711.

36a

clearly established. And the Texas laws don’t provide
notice for on-demand inspections.
For that reason, the limited-discretion requirement shouldn’t matter. The notice requirement would
govern. No matter how you shake it, the officials
shouldn’t be immune.
III
Yet here we are—Dr. Zadeh still loses; there and
back again. Everyone agrees his Fourth Amendment
rights were violated. But owing to a legal deus ex
machina—the ‘‘clearly established’’ prong of qualifiedimmunity analysis—the violation eludes vindication.
At first I agreed with the panel majority that the government violated the law but not clearly established
law. I was wrong. Beyond this case, though, I must
restate my broader unease with the real-world functioning of modern immunity practice.
To some observers, qualified immunity smacks of
unqualified impunity, letting public officials duck consequences for bad behavior—no matter how palpably
unreasonable— as long as they were the first to behave badly. Merely proving a constitutional deprivation doesn’t cut it; plaintiffs must cite functionally
identical precedent that places the legal question ‘‘beyond debate’’ to ‘‘every’’ reasonable officer.53 Put differently, it’s immaterial that someone acts unconstitutionally if no prior case held such misconduct unlawful. This current ‘‘yes harm, no foul’’ imbalance
leaves victims violated but not vindicated. Wrongs are
not righted, and wrongdoers are not reproached.

53

Ashcroft, 563 U.S. at 741; see also, e.g., Kisela v. Hughes, 138
S. Ct. 1148, 1153 (2018) (per curiam); Mullenix v. Luna, 136 S.
Ct. 305, 308 (2015) (per curiam).

37a

Today the majority opinion says Dr. Zadeh loses
because his rights weren’t clearly established. But
courts of appeals are divided—intractably—over precisely what degree of factual similarity must exist.
How indistinguishable must existing precedent be?
On the one hand, the Supreme Court reassures plaintiffs that its caselaw ‘‘does not require a case directly
on point for a right to be clearly established.’’54 On the
other hand, the Court admonishes that ‘‘clearly established law must be ‘particularized’ to the facts of the
case.’’55 How to square these abstract instructions?
Take Dr. Zadeh. Effectively, he loses since no previous
panel has ever held this exact sort of search unconstitutional. In day-today practice, the ‘‘clearly established’’ standard is neither clear nor established
among our Nation’s lower courts.
Two other factors perpetuate perplexity over
‘‘clearly established law.’’ First, many courts grant immunity without first determining whether the challenged behavior violates the Constitution.56 They
avoid scrutinizing the alleged offense by skipping to
the simpler second prong: no factually analogous precedent. Forgoing a knotty constitutional inquiry makes
for easier sledding, no doubt. But the inexorable result
is ‘‘constitutional stagnation’’57—fewer courts establishing law at all, much less clearly doing so. Section
54

Kisela, 138 S. Ct. at 1152 (quoting White v. Pauly, 137 S. Ct.
548, 551 (2017)).
55
Pauly, 137 S. Ct. at 552 (quoting Anderson, 483 U.S. at 640).
56
See Pearson v. Callahan, 555 U.S. 223, 227 (2009).
57
Aaron L. Nielson & Christopher J. Walker, The New Qualified
Immunity, 89 S. CAL. L. REV. 1, 12 (2015) (‘‘Because a great deal
of constitutional litigation occurs in cases subject to qualified immunity, many rights potentially\ might never be clearly established should a court skip ahead to the question whether the law

38a

1983 meets Catch-22. Plaintiffs must produce precedent even as fewer courts are producing precedent.
Important constitutional questions go unanswered
precisely because no one’s answered them before.
Courts then rely on that judicial silence to conclude
there’s no equivalent case on the books. No precedent
= no clearly established law = no liability. An
Escherian Stairwell. Heads government wins, tails
plaintiff loses.
Second, constitutional litigation increasingly involves cutting-edge technologies. If courts leapfrog the
underlying constitutional merits in cases raising
novel issues like digital privacy, then constitutional
clarity—matter-of-fact guidance about what the Constitution requires—remains exasperatingly elusive.
Result: gauzy constitutional guardrails as technological innovation outpaces legal adaptation.
Qualified immunity aims to balance competing
policy goals: ‘‘the need to hold public officials accountable when they exercise power irresponsibly and the
need to shield officials from harassment, distraction,
and liability when they perform their duties reasonably.’’58 And I concede that the doctrine enjoys special
favor at the Supreme Court, which seems untroubled
by any one-sidedness.59 The Court recently declined to
clearly established that the officer’s conduct was unlawful in the
circumstances of the case. The danger, in short, is one of constitutional stagnation.’’ (cleaned up))
58
Pearson, 555 U.S. at 231 (flagging these “two important interests”).
59
That said, four sitting Justices ‘‘have authored or joined opinions expressing sympathy’’ with various doctrinal, procedural,
and pragmatic critiques of qualified immunity. Joanna C.
Schwartz, The Case Against Qualified Immunity, 93 NOTRE
DAME L. REV. 1797, 1800 (2018) (including Justices Thomas,

39a

take up a closely watched case challenging the warrantless strip search of a four-year-old preschooler.60
A strangebedfellows alliance of leading scholars and
advocacy groups of every ideological stripe—perhaps
the most diverse amici ever assembled—had joined
forces to urge the Court to fundamentally reshape immunity doctrine. Even in this hyperpartisan age,
there is a growing, cross-ideological chorus of jurists61
and scholars62 urging recalibration of contemporary
immunity jurisprudence.
Ginsburg, Breyer, and Sotomayor, plus recently retired Justice
Kennedy).
60
Doe v. Woodard, 912 F.3d 1278 (10th Cir. 2019), cert. denied,
No. 18-1173, 2019 WL 1116409, at *1 (May 20, 2019).
61
See, e.g., Kisela, 138 S. Ct. at 1162 (Sotomayor, J., dissenting)
(fearing the Supreme Court’s ‘‘one-sided approach to qualified
immunity transforms the doctrine into an absolute shield for law
enforcement officers, gutting the deterrent effect of the Fourth
Amendment’’ and signaling ‘‘that palpably unreasonable conduct
will go unpunished’’); Ziglar v. Abbasi, 137 S. Ct. 1843, 1872
(2017) (Thomas, J., concurring in part and concurring in the
judgment) (‘‘In an appropriate case, we should reconsider our
qualified immunity jurisprudence.’’); Thompson v. Clark, No. 14CV-7349, 2018 WL 3128975, at *11 (E.D.N.Y. June 26, 2018)
(Weinstein, J.) (‘‘The Supreme Court’s recent emphasis on shielding public officials and federal and local law enforcement means
many individuals who suffer a constitutional deprivation will
have no redress . . . . ”).
62
Last year’s symposium issue of the Notre Dame Law Review
gathers several scholarly essays that scrutinize qualified immunity and discuss potential refinements given mounting legal
and empirical criticism. Symposium, The Future of Qualified Immunity, 93 NOTRE DAME L. REV. 1793 (2018); see also, e.g., William Baude, Is Qualified Immunity Unlawful?, 106 CALIF. L.
REV. 45, 88 (2018) (claiming the doctrine ‘‘lacks legal justification, and the Court’s justifications are unpersuasive’’); Joanna C.
Schwartz, How Qualified Immunity Fails, 127 YALE L.J. 2, 70
(2017) (concluding that ‘‘the Court’s efforts to advance its policy

40a

Indeed, it’s curious how this entrenched, judgecreated doctrine excuses constitutional violations by
limiting the statute Congress passed to redress constitutional violations.63 Count me with Chief Justice
Marshall: ‘‘The government of the United States has
been emphatically termed a government of laws, and
not of men. It will certainly cease to deserve this high
appellation, if the laws furnish no remedy for the violation of a vested legal right.’’64
Doctrinal reform is arduous, often-Sisyphean
work. Finding faults is easy; finding solutions, less so.
But even if qualified immunity continues its forward

goals through qualified immunity doctrine has been an exercise
in futility’’); John C. Jeffries, Jr., What’s Wrong with Qualified
Immunity?, 62 FLA. L. REV. 851, 869 (2010) (‘‘Today, the law of
qualified immunity is out of balance . . . . The Supreme Court
needs to intervene, not only to reconcile the divergent approaches
of the Circuits but also, and more fundamentally, to rethink
qualified immunity and get constitutional tort law back on
track.’’). The essays in Notre Dame Law Review feature lively
disagreement, including a nuanced pro-immunity piece by Professors Aaron Nielson and Christopher Walker, A Qualified Defense of Qualified Immunity, that addresses two principal antiimmunity arguments— that qualified immunity (1) is unlawful
as a matter of positive law and (2) fails to advance its purported
policy objectives. Aaron L. Nielson & Christopher J. Walker, A
Qualified Defense of Qualified Immunity, 93 NOTRE DAME L.
REV. 1853 (2018).
63
Cf. United States v. Ugalde, 861 F.2d 802, 810 (5th Cir. 1988)
(‘‘We must ensure that for every right there is a remedy.’’ (citing
Marbury, 5 U.S. at 163)).
64
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 163 (1803). In Little v. Barreme, Chief Justice Marshall’s opinion declined to ‘‘excuse from damages’’ Captain George Little for unlawfully capturing a Danish vessel, though it was ‘‘seized with pure intention.’’
6 U.S. (2 Cranch) 170, 179 (1804).

41a

march and avoids sweeping reconsideration, it certainly merits a refined procedural approach that more
smartly—and fairly—serves its intended objectives.

42a

APPENDIX B

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-50518

DOCTOR JOSEPH A. ZADEH; JANE DOE, Patient,
Plaintiffs-Appellants
v.
MARI ROBINSON, in her individual capacity and in
her official capacity; SHARON PEASE, in her individual capacity; KARA KIRBY, in her individual capacity,
Defendants-Appellees

Appeals from the United States District Court
for the Western District of Texas

Before JOLLY, SOUTHWICK, and WILLET, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
The Texas Medical Board executed an administrative subpoena on Dr. Joseph Zadeh’s medical office.
Thereafter, Dr. Zadeh and one of his patients sued
several Board members under 42 U.S.C. § 1983,
claiming that the Board’s actions violated the Fourth
Amendment. The district court partially granted the
defendants’ motion to dismiss and later granted their

43a

motion for summary judgment rejecting all remaining
claims. We AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND

Plaintiff Dr. Joseph Zadeh appeals the dismissal
of his Section 1983 claim against several members of
the Texas Medical Board who he claims violated his
constitutional rights through a warrantless search of
his office and medical records. Dr. Zadeh, an internal
medicine doctor, owns and operates a medical practice
in Euless, Texas. One of his patients, Jane Doe, is also
a plaintiff-appellant in this case.
Dr. Zadeh was the subject of an administrative
proceeding before the State Office of Administrative
Hearings (‘‘SOAH’’) for violations of the Board’s regulations. The Drug Enforcement Agency (‘‘DEA’’) also
was investigating him. Indeed, it appears the Board
first learned about allegations against Dr. Zadeh
when the DEA filed a complaint with the Board about
his prescribing practices in September 2013. The DEA
investigator emailed a representative of the Board,
stating, ‘‘I’m at a point in the criminal case that I need
to interview Dr. Zadeh and review his patient files.’’
The Board then initiated an investigation.
As part of this investigation, Defendants Sharon
Pease and Kara Kirby, who were investigators with
the Board, served an administrative subpoena on Dr.
Zadeh on October 22, 2013. The subpoena had the
electronic signature of Defendant Mari Robinson, who
was the Executive Director of the Board. The subpoena was for the immediate production of the medical records of sixteen of Dr. Zadeh’s patients. Two
DEA agents who were investigating related criminal
allegations accompanied Kirby and Pease.

44a

Dr. Zadeh was not at his office when the investigators arrived, so the investigators presented the subpoena to his medical assistant. According to the plaintiffs, the medical assistant requested time to seek advice from legal counsel, but the investigators told her
that failure to turn the records over immediately could
result in the loss of Dr. Zadeh’s medical license. She
eventually complied, taking the defendants into a conference room and delivering the requested records to
them. Although most of their time was spent inside
the public waiting area or the conference room, the investigators also approached the medical assistant to
ask for help while she was in exam rooms and later in
a storage room.
Dr. Zadeh and his patient, Jane Doe, sued Robinson, Pease, and Kirby in their individual capacities
and Robinson in her official capacity in the United
States District Court for the Western District of
Texas. They alleged the defendants’ actions violated
their Fourth Amendment, due process, and privacy
rights. The plaintiffs sought monetary damages under
42 U.S.C. § 1983 as well as declaratory relief. The defendants moved to dismiss the plaintiffs’ claims on
these grounds: (1) the plaintiffs lacked standing; (2)
the Younger abstention doctrine barred the requests
for declaratory relief; (3) the claim against Robinson
in her official capacity was barred by the doctrine of
sovereign immunity; (4) the doctrine of qualified immunity applied to the claims against the defendants
in their individual capacities.
In ruling on the motion to dismiss, the district
court held Dr. Zadeh had standing to pursue declaratory relief, but Jane Doe did not. Nonetheless, the district court concluded that ‘‘the Younger abstention
doctrine require[d] [it] to abstain from adjudicating
Plaintiff Zadeh’s claims for declaratory relief.’’ The

45a

district court also held that sovereign immunity
barred the plaintiffs’ claims for monetary damages
against Robinson in her official capacity. Finally, the
court concluded that the defendants were entitled to
qualified immunity for the privacy and due process
claims. The only part of the suit left, then, was Dr.
Zadeh’s claim that the defendants violated his clearly
established Fourth Amendment rights during the
search of his office.
The defendants moved for summary judgment on
‘‘whether Defendants exceeded their statutory subpoena authority by searching and inspecting Plaintiff’s office and records.’’ Although the plaintiffs alleged that the investigators performed a thorough
search of Dr. Zadeh’s office, the district court found
that the record did not support this allegation. Instead, the district court determined that the ‘‘Defendants’ presence at Plaintiff’s office was solely to execute
the subpoena instanter.’’ The district court also held
that Robinson was not liable as she neither affirmatively participated in the alleged search nor implemented unconstitutional policies that caused the alleged constitutional deprivation. Further, there was
‘‘no evidence Defendants Pease and Kirby inspected
Plaintiff’s office or searched his records.’’ The plaintiffs timely appealed.
DISCUSSION

The plaintiffs appeal both the order granting the
motion to dismiss in part and the order granting the
motion for summary judgment. Although we review
both de novo, a different legal standard applies to
each:
In the former, the central issue is whether, in
the light most favorable to the plaintiff, the
complaint states a valid claim for relief. In the

46a

latter, we go beyond the pleadings to determine whether there is no genuine issue as to
any material fact and that the movant is entitled to judgment as a matter of law.
St. Paul Mercury Ins. Co. v. Williamson, 224 F.3d 425,
440 n.8 (5th Cir. 2000) (citations omitted).
We first address the plaintiffs’ challenge to the
district court’s grant of qualified immunity, evaluating whether clearly established law prohibited the defendants’ conduct. Next, we discuss whether the district court erred in abstaining from deciding the plaintiffs’ claims for declaratory judgment. Finally, we analyze whether Robinson was liable in her supervisory
capacity.
I.

Grant of qualified immunity
‘‘The doctrine of qualified immunity protects government officials from civil damages liability when
their actions could reasonably have been believed to
be legal.’’ Morgan v. Swanson, 659 F.3d 359, 370–71
(5th Cir. 2011). Officials are entitled to qualified immunity ‘‘unless (1) they violated a federal statutory or
constitutional right, and (2) the unlawfulness of their
conduct was ‘clearly established at the time.’ ’’ District
of Columbia v. Wesby, 138 S.Ct. 577, 589 (2018) (quoting Reichle v. Howards, 566 U.S. 658, 664 (2012)).
Using this framework, we analyze the plaintiffs’
arguments that clearly established law prohibited the
defendants’ execution of the subpoena instanter. The
plaintiffs offer two theories for why the defendants’
conduct was unconstitutional. First, they argue it was
a warrantless search that did not satisfy the administrative exception. Second, they argue it was a pretextual search and thus unconstitutional.

47a

a. Warrantless search
The plaintiffs argue the Board violated the Fourth
Amendment when it demanded immediate compliance with its administrative subpoena. We have been
faced with a challenge to a subpoena instanter executed by the Texas Medical Board before. See Cotropia
v. Chapman, 721 F. App’x 354 (5th Cir. 2018). In that
nonprecedential opinion, we held: ‘‘Absent consent,
exigent circumstances, or the like, in order for an administrative search to be constitutional, the subject of
the search must be afforded an opportunity to obtain
precompliance review before a neutral decisionmaker.’’ Id. at 358 (quoting City of Los Angeles v.
Patel, 135 S. Ct. 2243, 2452 (2015)).
In that case, the physician at the center of a Board
investigation pled sufficient facts to overcome qualified immunity. Id. at 361. The doctor alleged that a
Board member ‘‘violated the clearly established right
to an opportunity to obtain precompliance review of
an administrative subpoena before a neutral decisionmaker’’ when he took documents from the physician’s office over objections from the office receptionist. Id. at 357. Relying on Supreme Court precedent,
we held that it was clear at the time that ‘‘prior to
compliance, Cotropia was entitled to an opportunity
to obtain review of the administrative subpoena before a neutral decisionmaker.’’ Id. at 358 (citing See v.
City of Seattle, 387 U.S. 541, 545 (1967); Donovan v.
Lone Steer, Inc., 464 U.S. 408, 415 (1984)). Similarly,
the demand to turn over Dr. Zadeh’s medical records
immediately did not provide an opportunity for precompliance review. We agree, then, that a requirement of precompliance review in many, if not most,
administrative searches had been clearly established
by Supreme Court precedent prior to the search here.

48a

The defendants acknowledge this law but maintain there was no constitutional violation because this
search fell into an exception to the general rule requiring precompliance review. We next examine that argument.
i. Closely regulated industry
No opportunity for precompliance review is
needed for administrative searches of industries that
‘‘have such a history of government oversight that no
reasonable expectation of privacy’’ exists for individuals engaging in that industry. Marshall v. Barlow’s,
Inc., 436 U.S. 307, 313 (1978). Even so, warrantless
inspections in closely regulated industries must still
satisfy three criteria: (1) a substantial government interest, (2) a regulatory scheme that requires warrantless searches to further the government interest, and
(3) ‘‘a constitutionally adequate substitute for a warrant.’’ New York v. Burger, 482 U.S. 691, 702–03
(1987) (quoting Donovan v. Dewey, 452 U.S. 594, 603
(1981)).
Cotropia did not address whether the Board’s use
of administrative subpoenas satisfied the Burger criteria because the issue was not raised until oral argument. Cotropia, 721 F. App’x at 360 & n.6. As a result,
the panel’s holding was expressly limited to concluding that the Board’s demand for immediate compliance with the subpoena did not satisfy the general administrative exception to the warrant requirement.
The argument was raised here. Thus, we must answer
whether the Burger exception permitted the Board’s
administrative subpoena and whether that law was
clearly established at the time of its execution.
To categorize industries under Burger, courts consider the history of warrantless searches in the industry, how extensive the regulatory scheme is, whether

49a

other states have similar schemes, and whether the
industry would pose a threat to the public welfare if
left unregulated. See Burger, 482 U.S. at 704; Patel,
135 S.Ct. at 2454. The defendants characterize the
relevant industry in two different ways. We evaluate
first whether the practice of medicine is a closely regulated industry and then whether the practice of prescribing controlled substances is closely regulated.
Acknowledging that the medical profession is subject to close oversight, the district court emphasized
the absence of a history of warrantless inspections to
conclude that the medical profession was not a closely
regulated industry. Important to its conclusion was
the confidential nature of the doctor-patient relationship: ‘‘It strains credibility to suggest that doctors and
their patients have no reasonable expectation of privacy.’’ On appeal, the defendants all but concede that
there is not a lengthy history of warrantless searches.
They instead emphasize the extensive regulatory
scheme governing the practice of medicine and the
risk that the industry could pose to the public welfare.
There is no doubt that the medical profession is
extensively regulated and has licensure requirements. Satisfying the Burger doctrine requires more.
The Supreme Court instructs ‘‘that the doctrine is essentially defined by ‘the pervasiveness and regularity
of the federal regulation’ and the effect of such regulation upon an owner’s expectation of privacy.’’
Burger, 482 U.S. at 701 (quoting Dewey, 452 U.S. at
605–06). Another key factor is ‘‘the duration of a particular regulatory scheme.’’ Id. (quoting Dewey, 452
U.S. at 606).
The Board cites several laws or regulations governing the behavior of doctors. Outside of citing
Texas’s licensure requirement for physicians, the regulations the Board cites do not apply to the entire

50a

medical profession. Instead, they target the practice
of prescribing controlled substances. As examples, the
Board states that doctors must register with the DEA
to prescribe controlled substances, TEX. HEALTH &
SAFETY CODE § 481.061; that prescriptions of controlled substances are monitored by several law enforcement agencies, id. §§ 481.067, 481.075, 481.076;
and that pain management clinics must register as
such, which allows the Board to inspect them from
time to time, TEX. OCC. CODE. §§ 168.101, 168.052; 22
TEX. ADMIN. CODE §§ 195.2, 195.3. The Board also refers us to laws and regulations that similarly regulate
anesthesia. These, though, do not amount to pervasiveness and regularity of regulation over the medical
industry as a whole as Burger requires. Instead, only
specific groups of doctors may have been put on notice
that the Board may perform some inspections.
We also do not see in the medical profession an
entrenched history of warrantless searches that is relevant but not dispositive. Burger, 482 U.S. at 701. For
example, when the Court held that the liquor industry
was closely regulated, it mentioned that English commissioners could inspect brewing houses on demand
in the 1660s, and that Massachusetts passed a similar
law in 1692. Colonnade Catering Corp. v. United
States, 397 U.S. 72, 75 (1970). It then referred to a
1791 federal law that has continued in various forms,
permitting federal officers to perform warrantless
searches of distilleries and imposing an excise tax on
distilled liquor. Id. Because the focus there was ‘‘the
liquor industry long subject to close supervision and
inspection,’’ the Court applied the rule from See to
conclude that the Fourth Amendment did not prohibit
the warrantless searches authorized by Congress. Id.
at 77. Here, there is no such history.

51a

In considering the reasonable expectation of privacy, we also consider the sensitive nature of medical
records. The Ninth Circuit explained that ‘‘the theory
behind the closely regulated industry exception is that
persons engaging in such industries, and persons present in those workplaces, have a diminished expectation of privacy.’’ Tucson Woman’s Clinic v. Eden, 379
F.3d 531, 550 (9th Cir. 2004). We agree with that
court’s observation that in medical contexts, the expectation of privacy likely is heightened. Id.
Admittedly, federal regulations do exempt the
Board from the privacy requirements of the Health Insurance
Portability
and
Accountability
Act
(‘‘HIPAA’’). 45 C.F.R. § 164.512. Further, the Board
cites Texas laws providing that where the Board does
obtain information, it is subject to confidentiality requirements. See TEX. OCC. CODE. §§ 159.002;
159.003(a)(5); 164.007(c). That HIPAA permits disclosure to the Board and that the regulations governing
the Board continue to protect that information from
disclosure does not mean that the Board is entitled to
access to that information through an administrative
search without allowing an opportunity for precompliance review.
We conclude, then, that the medical industry as a
whole is not a closely regulated industry for purposes
of Burger. Even if the medical profession at large cannot be said to fall within these Burger factors, it is possible that a subset, such as those who prescribe controlled substances, would do so. We examine that possibility.
We look again at the extent of the regulation of
the prescription of controlled substances. Although
the Board has not identified a Texas law or regulation
that would put all doctors on notice that they are subject to warrantless inspections, the Board did identify

52a

regulations that put doctors who operate pain management clinics on notice that their offices can be inspected. See TEX. OCC. CODE. §§ 168.101, 168.052; 22
TEX. ADMIN. CODE §§ 195.2, 195.3. Further, we have
held that ‘‘the pharmaceutical industry is a ‘pervasively regulated business’’’ because ‘‘[d]ealers in
drugs, like dealers in firearms, are required to be federally licensed.’’ United States v. Schiffman, 572 F.2d
1137, 1142 (5th Cir. 1978). ‘‘The dealer accepts the license knowing that [a statute] authorizes inspection
of his business.’’ Id. ‘‘Inspections are essential to the
federal regulatory scheme to ensure that drugs are
distributed only through ‘regular channels’ and not diverted to illegal uses.’’ Id. The same concerns exist
here.
There is a strong case that doctors who operate
pain management clinics are engaging in a closely
regulated industry. Dr. Zadeh, though, had not registered his clinic as a pain management clinic. How that
fact might affect the analysis we leave open. Rather
than considering whether the volume of his business
in that specialty would itself affect his expectations of
privacy and otherwise place him in the closely regulated category, we decline to resolve this question and
look at other considerations.
ii. Burger exception requirements
Even were we to accept the defendants’ argument
that doctors prescribing controlled substances are engaging in a closely regulated industry with less reasonable expectations of privacy, administrative
searches of such industries still must satisfy the
Burger criteria. There is no meaningful dispute in this
case that the State has a substantial interest in regulating the prescription of controlled substances and
that the inspection of a doctor’s records would aid the

53a

Government in regulating the industry. Our analysis
of whether the statutory scheme is a proper substitute
for a search warrant starts with identifying the search
authority claimed by the Board: its subpoena authority and its authority to inspect pain management clinics. The principal response from plaintiffs is that neither provides a constitutionally adequate substitute
for a warrant.
In order for a warrant substitute to be constitutionally adequate, ‘‘the regulatory statute must perform the two basic functions of a warrant: it must advise the owner of the commercial premises that the
search is being made pursuant to the law and has a
properly defined scope, and it must limit the discretion of the inspecting officers.’’ Burger, 482 U.S. at
703.
The relevant statute provides: ‘‘The board may issue a subpoena or a subpoena duces tecum to compel
the attendance of a witness and the production of
books, records, and documents.’’ TEX. OCC. CODE. §
153.007(a). The Board argues that the statute, when
considered with the following regulation, limits the
discretion of the officials. The regulation provides that
after a ‘‘request by the board or board representatives,
a licensee shall furnish to the board copies of medical
records or the original records within a reasonable
time period, as prescribed at the time of the request.’’
22 TEX. ADMIN. CODE § 179.4(a). The regulation defines ‘‘reasonable time’’ as ‘‘fourteen calendar days or
a shorter time if required by the urgency of the situation or the possibility that the records may be lost,
damaged, or destroyed.’’ Id.
The district court held that a search using the
Board’s subpoena authority did not satisfy the third
factor of the Burger test as it was ‘‘purely discretionary,’’ allowing the Board ‘‘to choose which doctors to

54a

subpoena and to do so at a frequency it determines.’’
To evaluate that holding, we consider the limits that
do exist: only licensees are subject to the subpoena;
only medical records must be produced; and it is the
Board or its representatives who will be asking for the
records. As the district court stated, though, there is
no identifiable limit on whose records can properly be
subpoenaed.
As to inspections of pain management clinics, the
Board argues that some limits to its authority are set
by the statute permitting it to inspect pain management clinics. Specifically, the statute allows it to examine ‘‘the documents of a physician practicing at the
clinic, as necessary to ensure compliance with this
chapter.’’ TEX. OCC. CODE. § 168.052(a). Providing
more specific guidance, the regulation in effect at the
time provided:
The board may inspect a pain management
clinic certified under this chapter, including
the documents of a physician practicing at the
clinic, to determine if the clinic is being operated in compliance with applicable laws and
rules.
22 TEX. ADMIN. CODE § 195.3(b).
The district court found this inspection authority,
like the subpoena authority, to be ‘‘purely discretionary.’’ The governing criteria for an inspection is that
the target be a pain management clinic, that the
Board performs the inspection, and that the purpose
for the search be to determine compliance with pain
management rules. We agree with the district court,
though, that these requirements suffered from the
same fatal Burger flaw as the subpoena authority:
they did not limit how the clinics inspected are chosen.

55a

In summary, there are insufficient limits on the
discretion of the Board to satisfy the Burger requirements, whether considering the medical profession in
general or as to pain management clinics. What is left
is the question of whether the law on these points was
clearly established and, regardless, whether the
search was invalid as pretextual.
iii. Requirement of clearly established law for
qualified immunity
We have concluded that there was a violation of
Dr. Zadeh’s constitutional rights. Even so, these defendants are entitled to summary judgment unless
the fact that their actions violated his constitutional
rights was ‘‘clearly established at the time’’ of the
search. Howards, 566 U.S. at 664.
Our analysis of the clarity of relevant law is objective, meaning it does not focus on the specific defendants’ knowledge. ‘‘The touchstone of this inquiry is
whether a reasonable person would have believed that
his conduct conformed to the constitutional standard
in light of the information available to him and the
clearly established law.’’ Goodson v. City of Corpus
Christi, 202 F.3d 730, 736 (5th Cir. 2000). ‘‘[E]ven law
enforcement officials who ‘reasonably but mistakenly
[commit a constitutional violation]’ are entitled to immunity.’’ Glenn v. City of Tyler, 242 F.3d 307, 312–13
(5th Cir. 2001) (quoting Goodson, 202 F.3d at 736).
For the law to be clearly established, there must be a
close congruence of the facts in the precedent and
those in the case before us. Wesby, 138 S.Ct. at 589–
90. ‘‘The precedent must be clear enough that every
reasonable official would interpret it to establish the
particular rule the plaintiffs seek to apply.’’ Id. at 590.
Defendants rely on one of our precedents that reviewed an administrative search of a dentist’s office

56a

by agents of the Texas State Board of Dental Examiners, accompanied by Department of Public Safety officials. Beck v. Tex. State Bd. of Dental Exam’rs, 204
F.3d 629, 632 (5th Cir. 2000). Dentist Beck was a target because of complaints filed against him for prescribing controlled substances. Id. We concluded that
the search did not violate the plaintiff’s clearly established rights. Id. at 638–39. We applied the Burger exception and determined there was a significant state
interest in regulating dentists’ use of controlled substances; the search was conducted pursuant to two
regulatory schemes; and there was an adequate substitute for a warrant where the statute permitted the
official to conduct inspections during ‘‘reasonable
times’’ after ‘‘stating his purpose’’ and presenting his
credentials to the owner. Id. at 638–39. In light of
Beck, the Board argues that reasonable investigators
could have believed the Burger exception permitted
the execution of the subpoena as they too were investigating prescriptions of controlled substances within
the medical industry.
The plaintiffs urge that Beck is ‘‘patently distinguishable.’’ Any possible distinction, though, must be
viewed through the requirement that the law, including a distinction, must be ‘‘sufficiently clear that every
reasonable official would understand that what he is
doing is unlawful’’ at that time. Wesby, 138 S.Ct. at
589 (quotation marks omitted). That means ‘‘existing
law must have placed the constitutionality of the officer’s conduct ‘beyond debate.’’’ Id. Perhaps most relevant, the ‘‘legal principle [must] clearly prohibit the
officer’s conduct in the particular circumstances before him. The rule’s contours must be so well defined
that it is ‘clear to a reasonable officer that his conduct
was unlawful in the situation he confronted.’’’ Id. at
590 (emphasis added).

57a

Thus, it was not for these Medical Board investigators to try to resolve whether what was permitted
for the Dental Board would not be permitted under
the different statutes and regulations applicable to
them. Although Beck does not control the constitutionality of the Board’s actions in this case, it does weigh
in favor of the defendants’ receiving qualified immunity. We have decided cases where a statute did not
clearly limit the official’s discretion in selecting who
would be subject to an administrative search. In one,
we held that the statute provided a constitutionally
adequate substitute for a warrant where the statute
provided:
The licensing agency shall make or cause to be
made inspections relative to compliance with
the laws and regulations governing the licensure of child care facilities. Such inspections
shall be made at least once a year but additional inspections may be made as often as
deemed necessary by the licensing agency.
See Ellis v. Miss. Dep’t of Health, 344 F. App’x 43 (5th
Cir. 2009) (citing MISS. CODE. ANN. § 43-20-15).
Though that opinion is not precedential, we agree
with its reasoning.
We also upheld an administrative search where,
despite limits on the conduct of an officer after a traffic stop, there were not clear limits on an officer’s discretion as to whom to stop. See United States v. Fort,
248 F.3d 475, 482 (5th Cir. 2001). Because we have
not so far required there to be a clear limit on determining whom officials select for an administrative
search, the defendants reasonably could have believed
that the administrative scheme here provided a constitutionally adequate substitute for a warrant.

58a

The plaintiffs also argue the defendants did not
follow the statutory scheme and therefore caselaw in
which the legal requirements for the search were followed is inapplicable. Regardless of the legal argument, the factual basis for it was rejected by the district court. It found only meaningless deviations from
search protocols. That finding is not clearly erroneous.
Thus, the unlawfulness of the defendants’ conduct
was not clearly established at the time of the search.
b. Pretextual searches
The plaintiffs also argue that the search was a
pretext for uncovering evidence of criminal wrongdoing, not a valid administrative search. According to
the plaintiffs, the DEA brought Dr. Zadeh’s possible
misdeeds before the Medical Board. A DEA agent then
was present during the search. To finish the story,
though, the Medical Board proceeded against Dr. Zadeh. Before there was a full hearing on the merits, the
Board entered an agreed order. In the order, the panel
found that Dr. Zadeh was operating a pain management clinic without registering it. There is nothing in
this record indicating whether the DEA’s investigation resulted in a criminal prosecution or any other
action.
“Even under a valid inspection regime, the administrative search cannot be pretextual.’’ Club Retro,
LLC v. Hilton, 568 F.3d 181, 197 (5th Cir. 2009). It is
incorrect, though, to use the label ‘‘pretext’’ simply because of an overlap between an administrative search
and a criminal search. The Burger Court remarked
that ‘‘a State can address a major social problem both
by way of an administrative scheme and through penal sanctions.’’ Burger, 482 U.S. at 712. To determine
whether the search there was constitutional, the
Court looked to whether the administrative scheme

59a

really ‘‘authorize[d] searches undertaken solely to uncover evidence of criminality.’’ Id.
Similarly, the Supreme Court dismissed a defendant’s argument ‘‘that because the Customs officers
were accompanied by a Louisiana State Policeman,
and were following an informant’s tip that a vessel in
the ship channel was thought to be carrying marijuana,’’ the Government could not rely on the administrative search exception. United States v. VillamonteMarquez, 462 U.S. 579, 584 n.3 (1983).
We have applied these principles to a search of an
automobile salvage yard. United States v. Thomas,
973 F.2d 1152, 1155–56 (5th Cir. 1992). There, an investigator with the Texas Department of Public
Safety tracked a vehicle to an auto salvage business
and there conducted an inventory inspection under
Texas statute. Id. at 1155. Even though the inventory
inspection was prompted by suspicion of criminal conduct, the investigator still was entitled to use information gained during the inspection to obtain a
search warrant for the salvageyard owner’s residence.
Id. ‘‘Administrative searches conducted pursuant to
valid statutory schemes do not violate the Constitution simply because of the existence of a specific suspicion of wrongdoing.’’ Id. at 1155–56.
Beck has similar analysis. As here, the administrative search in Beck was initiated after a tip. Dental
Board member Michael Pitcock ‘‘stated in his deposition that information was forwarded to him alleging
that Beck had ordered unusually high volumes of controlled substances.’’ Beck, 204 F.3d at 632. The Dental
Board suspected Beck of violating criminal statutes,
and a law enforcement officer accompanied the board
agent in its inspection of the dental office. Id. The dentist argued that the search was conducted to uncover

60a

criminal wrongdoing and thus was not conducted pursuant to a valid administrative scheme. Id. at 638. We
held that the suspicions of criminal wrongdoing ‘‘did
not render the administrative search unreasonable,’’
citing Villamonte-Marquez and Thomas. Id. at 639.
As to Dr. Zadeh, the DEA was closely involved
with the Board’s investigation. Under Burger, though,
we look to whether the search that occurred was under a scheme serving an administrative purpose. The
Board’s purpose is demonstrated by the subsequent
administrative action against Dr. Zadeh. The search
was not performed ‘‘solely to uncover evidence of criminality.’’ See Burger, 482 U.S. at 698. Thus, the search
was not pretextual.
II.

Declaratory judgment
Dr. Zadeh argues that the district court erred in
abstaining from deciding the declaratory judgment
claims following Younger. Dr. Zadeh asked the district
court to make declaratory judgments on several laws
implicating the Board. The district court did not resolve any.
‘‘In Younger, the Supreme Court ‘instructed federal courts that the principles of equity, comity, and
federalism in certain circumstances counsel abstention in deference to ongoing state proceedings.’’’
Wightman v. Tex. Supreme Court, 84 F.3d 188, 189
(5th Cir. 1996) (citations omitted). Following Supreme
Court precedent, this court follows ‘‘a three-part test
describing the circumstances under which abstention
[is] advised: (1) the dispute should involve an ‘ongoing
state judicial proceeding;’ (2) the state must have an
important interest in regulating the subject matter of
the claim; and (3) there should be an ‘adequate opportunity in the state proceedings to raise constitutional
challenges.’ ’’ Id. (citation omitted).

61a

The district court applied the reasoning of one of
our unpublished cases, Perez v. Tex. Med. Bd., 556 F.
App’x 341 (5th Cir. 2014). There, we held that Younger
barred the plaintiffs’ suit seeking to enjoin the Board
from pursuing any causes of action against them. Id.
at 342–43. We agree with that panel’s determination
that Texas had a strong interest in regulating the
practice of medicine, and the Perez plaintiffs could
raise their constitutional challenges in the state court
because the law provided for judicial review of the administrative decision. Id. at 342. Following Perez, the
district court concluded that Dr. Zadeh had an ongoing administrative action pending; the state had a significant interest in regulating medicine in Texas; and
Dr. Zadeh could appeal his administrative action in
state court and raise constitutional challenges there.
Accordingly, the district court abstained from adjudicating the requests for declaratory relief.
Dr. Zadeh claims Younger is inapplicable because
the Board argued that the lawsuit did not implicate
the underlying investigation. Dr. Zadeh also argues
that there will be no adequate opportunity in the state
proceedings to raise any constitutional challenges. He
claims that ‘‘[d]octors do not have the power to file an
appeal concerning the findings of fact and conclusions
of law contained in a final decision (but the TMB
does).’’
Dr. Zadeh was subject to an ongoing state administrative proceeding, and that qualifies as a judicial
proceeding for this analysis. See Middlesex Cnty. Ethics Comm. v. Garden State Bar Ass’n, 457 U.S. 423,
432 (1982). As we stated in Perez, Texas has a strong
interest in regulating the practice of medicine. Finally, despite plaintiffs’ contrary view, Texas law does
permit judicial review by either party of an adminis-

62a

trative decision.1 ‘‘A person who has exhausted all administrative remedies available within a state agency
and who is aggrieved by a final decision in a contested
case is entitled to judicial review under this chapter.’’
TEX. GOV’T CODE. § 2001.171.
The district court did not abuse its discretion in
abstaining from deciding the declaratory judgment
claims.
III.

Director Robinson’s potential supervisory
capacity liability
The plaintiffs argue that Robinson should be held
liable in her supervisory capacity. ‘‘A supervisory official may be held liable under § 1983 only if (1) he affirmatively participates in the acts that cause the constitutional deprivation, or (2) he implements unconstitutional policies that causally result in the constitutional injury.’’ Gates v. Tex. Dep’t of Protective and
Regulatory Servs., 537 F.3d 404, 435 (5th Cir. 2008).
A failure to train claim requires that the plaintiff
show (1) the supervisor’s failure to train; (2) the failure to train resulted in the violation of the plaintiff’s
rights; and (3) the failure to train shows deliberate indifference. Id. For deliberate indifference, ‘‘there must
be ‘actual or constructive notice’ ‘that a particular
omission in their training program causes . . . employees to violate citizens’ constitutional rights’ and the
actor nevertheless ‘choose[s] to retain that program.’’’

1

The plaintiffs note that the administrative law judge in the
SOAH proceeding decline to address the constitutional questions. Even so, all the law requires is that the issue hav been
preserved for the appeal to the state court. See Ohio Civil Rights
Comm’n v. Dayton Christian Schs., Inc., 477 U.S. 619, 629, 106
S. Ct. 2718, 91 L.Ed.2d. 512 (1986).

63a

Porter v. Epps, 659 F.3d 440, 447 (5th Cir. 2011) (citation omitted).
The plaintiffs argue that Robinson improperly
delegated her subpoena authority to subordinates
whose training she knew nothing about. Therefore,
the subpoena did not comply with Texas law because
the Executive Director of the Board is not permitted
to delegate her subpoena authority. The district court
did not determine whether the delegation was permissible. ‘‘In light of the express regulatory authority for
the delegation, the precedent set by her predecessors,
and the sheer volume of subpoenas issued every year
by the TMB,’’ Robinson’s actions did not amount to deliberate indifference.
In Texas administrative law, a rule of statutory
construction presumes that where a statute grants
specific authority to a designated public officer, the
legislature intended only that officer to have that authority. Lipsey v. Tex. Dep’t of Health, 727 S.W.2d 61,
64 (Tex. App.— Austin 1987, writ ref’d n.r.e.). Still,
Lipsey recognized ‘‘the authority to ‘subdelegate’ or
transfer the assigned function may be implied and the
presumption defeated owing to the nature of the assigned function, the makeup of the agency involved,
the duties assigned to it, the statutory framework,
and perhaps other matters.’’ Id. at 65.
In this case, a statute permits the Board to subpoena records. TEX. OCC. CODE. § 153.007. Section
153.007(b) permits the Board to delegate subpoena
authority ‘‘to the executive director or the secretarytreasurer of the board.’’ By administrative rule, the
executive director may ‘‘delegate any responsibility or
authority to an employee of the board.’’ 22 TEX. ADMIN. CODE § 161.7(c).

64a

In resolving this issue, we start with the fact the
rule articulated in Lipsey is only a presumption. Even
assuming that the plaintiffs could show that Robinson
failed to train her subordinates and that failure resulted in a constitutional violation, Robinson was not
deliberately indifferent in delegating her subpoena
authority in light of the fact she was acting pursuant
to the regulations in the same way as her predecessors
and the numerous subpoenas issued each year. To the
extent the plaintiffs seek to impose Section 1983 liability of Kirby and Pease through the subdelegation
argument, that law also was not clearly established.
AFFIRMED.

65a

DON R. WILLETT, Circuit Judge, concurring dubitante:
The court is right about Dr. Zadeh’s rights: They
were violated.
But owing to a legal deus ex machina—the ‘‘clearly
established law’’ prong of qualified- immunity analysis—the violation eludes vindication. I write separately to register my disquiet over the kudzu-like
creep of the modern immunity regime. Doctrinal reform is arduous, often-Sisyphean work. And the entrenched, judgemade doctrine of qualified immunity
seems Kevlar-coated, making even tweak-level tinkering doubtful. But immunity ought not be immune
from thoughtful reappraisal.1
***
To some observers, qualified immunity smacks of
unqualified impunity, letting public officials duck consequences for bad behavior—no matter how palpably
unreasonable— as long as they were the first to behave badly. Merely proving a constitutional deprivation doesn’t cut it; plaintiffs must cite functionally
identical precedent that places the legal question ‘‘beyond debate’’ to ‘‘every’’ reasonable officer.2 Put differently, it’s immaterial that someone acts unconstitutionally if no prior case held such misconduct unlawful.
1

“[Four] of the Justices currently on the Court have authored
or joined opinions expressing sympathy’’ with various doctrinal,
procedural, and pragmatic critiques of qualified immunity. Joanna C. Schwartz, The Case Against Qualified Immunity, 93
NOTRE DAME L. REV. 1797, 1800 (2018).
2
Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011); see also, e.g.,
Kisela v. Hughes, 138 S.Ct. 1148, 1153 (2018) (per curiam); Mullenix v. Luna, 136 S.Ct. 305, 308 (2015) (per curiam).

66a

Today’s case applies prevailing immunity precedent (as best we can divine it): Dr. Zadeh loses because
no prior decision held such a search unconstitutional.
But courts of appeals are divided—intractably—over
precisely what degree of factual similarity must exist.
How indistinguishable must existing precedent be?
On the one hand, the Supreme Court reassures plaintiffs that its caselaw ‘‘does not require a case directly
on point for a right to be clearly established.’’3 On the
other hand, the Court admonishes that ‘‘clearly established law must be ‘particularized’ to the facts of the
case.’’4 But like facts in like cases is unlikely. And this
leaves the ‘‘clearly established’’ standard neither clear
nor established among our Nation’s lower courts.
Two other factors perpetuate perplexity over
‘‘clearly established law.’’ First, many courts grant immunity without first determining whether the challenged behavior violates the Constitution.5 They avoid
scrutinizing the alleged offense by skipping to the simpler second prong: no factually analogous precedent.
Forgoing a knotty constitutional inquiry makes for
easier sledding. But the inexorable result is ‘‘constitutional stagnation’’6—fewer courts establishing law at
3

Kisela, 138 S.Ct. at 1152 (quoting White v. Pauly, 137 S.Ct.
548, 551 (2017)).
4
Pauly, 137 S.Ct. at 552 (quoting Anderson, 483 U.S. at 640).
5
See Pearson v. Callahan, 555 U.S. 223, 227 (2009).
6
Aaron L. Nielson & Christopher J. Walker, The New Qualified
Immunity, 89 S. CAL. L. REV. 1, 12 (2015) (‘‘Because a great deal
of constitutional litigation occurs in cases subject to qualified immunity, many rights potentially might never be clearly established should a court skip ahead to the question whether the law
clearly established that the officer’s conduct was unlawful in the
circumstances of the case. The danger, in short, is one of constitutional stagnation.’’) (cleaned up).

67a

all, much less clearly doing so. Second, constitutional
litigation increasingly involves cutting-edge technologies. If courts leapfrog the underlying constitutional
merits in cases raising novel issues like digital privacy, then constitutional clarity—matter-of-fact guidance about what the Constitution requires—remains
exasperatingly elusive. Result: blurred constitutional
contours as technological innovation outpaces legal
adaptation.
Section 1983 meets Catch-22. Plaintiffs must produce precedent even as fewer courts are producing
precedent. Important constitutional questions go unanswered precisely because those questions are yet
unanswered. Courts then rely on that judicial silence
to conclude there’s no equivalent case on the books. No
precedent = no clearly established law = no liability.
An Escherian Stairwell. Heads defendants win, tails
plaintiffs lose.
Count me with Chief Justice Marshall: ‘‘The government of the United States has been emphatically
termed a government of laws, and not of men. It will
certainly cease to deserve this high appellation, if the
laws furnish no remedy for the violation of a vested
legal right.’’7 The current ‘‘yes harm, no foul’’ imbalance leaves victims violated but not vindicated;
wrongs are not righted, wrongdoers are not reproached, and those wronged are not redressed. It is

7

Marbury v. Madison, 5 U.S. (1 Cranch) 137, 163 (1803). In Little v. Barreme, Chief Justice Marshall’s opinion declined to “excuse from damages” Captain George Little for unlawfully capturing a Danish vessel, though it was ‘‘seized with pure intention.’’
6 U.S. (2 Cranch) 170, 179 (1804).

68a

indeed curious how qualified immunity excuses constitutional violations by limiting the statute Congress
passed to redress constitutional violations.8
***
Qualified immunity aims to balance competing
policy goals.9 And I concede it enjoys special favor at
the Supreme Court, which seems untroubled by any
one-sidedness. Even so, I add my voice to a growing,
cross-ideological chorus of jurists10 and scholars11 urg-

8

Cf. United States v. Ugalde, 861 F.2d 802, 810 (5th Cir. 1988)
(“We must ensure that for every right there is a remedy.” (citing
Marbury, 5 U.S. at 163)).
9
The Supreme Court has flagged “two important interests—the
need to hold public officials accountable when they exercise
power irresponsibly and the need to shield officials from harassment, distraction, and liability when they perform their duties
reasonably.” Pearson, 555 U.S. at 231.
10
See, e.g., Kisela, 138 S.Ct. at 1162 (Sotomayor, J., dissenting)
(fearing the Supreme Court’s “one-sided approach to qualified
immunity transforms the doctrine into an absolute shield for law
enforcement officers, gutting the deterrent effect of the Fourth
Amendment” and signaling “that palpably unreasonable conduct
will go unpunished”); Ziglar v. Abbasi, 137 S.Ct. 1843, 1872
(2017) (Thomas, J., concurring in part and concurring in the
judgment) (“In an appropriate case, we should reconsider our
qualified immunity jurisprudence.”); Thompson v. Clark, No. 14CV-7349, 2018 WL 3128975, at *11 (E.D.N.Y. June 26, 2018)
(Weinstein, J.) (“The Supreme Court’s recent emphasis on shielding public officials and federal and local law enforcement means
many individuals who suffer a constitutional deprivation will
have no redress . . . .”).
11
The most recent issue of the Notre Dame Law Review gathers
several scholarly essays that carefully examine qualified immunity and discuss potential refinements in light of mounting legal

69a

ing recalibration of contemporary immunity jurisprudence and its “real world implementation.”12

and empirical criticism. Symposium, The Future of Qualified Immunity, 93 NOTRE DAME L. REV. 1793 (2018); see also, e.g., William Baude, Is Qualified Immunity Unlawful?, 106 CALIF. L.
REV. 45, 88 (2018) (claiming the doctrine ‘‘lacks legal justification, and the Court’s justifications are unpersuasive’’); Joanna C.
Schwartz, How Qualified Immunity Fails, 127 YALE L.J. 2, 70
(2017) (concluding that ‘‘the Court’s efforts to advance its policy
goals through qualified immunity doctrine has been an exercise
in futility’’); John C. Jeffries, Jr., What’s Wrong with Qualified
Immunity?, 62 FLA. L. REV. 851, 869 (2010) (‘‘Today, the law of
qualified immunity is out of balance . . . . The Supreme Court
needs to intervene, not only to reconcile the divergent approaches
of the Circuits but also, and more fundamentally, to rethink
qualified immunity and get constitutional tort law back on
track.’’).
12
South Dakota v. Wayfair, Inc., 138 S.Ct. 2080, 2097 (2018).

70a

APPENDIX C

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION

JOSEPH A. ZADEH and JANE
DOE,

1:15-CV-598 RP

Plaintiffs,
v.
MARI ROBINSON, in her individual capacity and in her official capacity SHARON PEASE,
in her individual capacity, and
KARA KIRBY, in her individual
capacity.
Defendants.
ORDER

Before the Court are Defendants’ Motion to Dismiss and Request for Rule 7 Reply, filed October 9,
2015 (Dkt. 11), Plaintiffs’ Response, filed October 23
(Dkt. 23), and Defendants’ Reply, filed October 30,
2015 (Dkt. 20), as well as supplemental briefing filed
at the Court’s request. Defendants move the Court to
dismiss this action pursuant to Federal Rule of Civil
Procedure 12(b)(1), for lack of subject matter jurisdiction, and pursuant to Federal Rule of Civil Procedure
12(b)(6), for failure to state a claim. The Court concludes that Defendants’ motion should be granted in
part and denied in part.

71a

I. Background
Plaintiff Joseph Zadeh is a doctor who specializes
in internal medicine. (Pls.’ Am. Compl. ¶¶ 44-46, Dkt.
7.)1 He owns and operates a medical office in Euless,
Texas. (Id.) Plaintiff Jane Doe is one of his patients.
(Id. ¶ 4.) Dr. Zadeh is currently the subject of an administrative action by the Texas Medical Board
(“TMB”) before the State Office of Administrative
Hearings (“SOAH”) for alleged violations of the Texas
Medical Practices Act and the Texas Medical Board
Rules related to his prescription of controlled substances to patients under his care. (Defs.’ Mot. Dismiss 2, Dkt. 11.) Dr. Zadeh is also the subject of an
investigation by the Drug Enforcement Agency
(“DEA”) for alleged violations of the Controlled Substances Act. (Id.)
According to Plaintiffs’ complaint, Defendant
Mari Robinson, executive director of the TMB, signed
an administrative subpoena for medical records located at Dr. Zadeh’s office. (Pls.’ Am. Compl. ¶ 10, Dkt.
7.) Among the records requested were those of Plaintiff Jane Doe. (Id. at ¶ 4.) The subpoena was expressly
designated as a subpoena “instanter” and specifically
demanded immediate compliance. (Id. at ¶ 23.) The

1

After Defendants filed their motion to dismiss, Plaintiffs filed
their Second Amended Complaint (Dkt. 31). Plaintiffs’ sole purpose in amending the Complaint was “to add a request that this
Honorable Court declare Texas Occupations Code § 168.052 unconstitutional as applied.” (Second Am. Compl. ¶ 2, Dkt. 31.) Otherwise, the two complaints are identical. Accordingly, the Second
Amended Complaint does not render the motion to dismiss moot.
The Court continues to cite the First Amended Complaint, but
this order applies to the Second Amended Complaint, which technically is Plaintiffs’ live pleading.

72a

day after the subpoena was signed, Defendants Sharon Pease and Kara Kirby, both investigators with the
TMB, went to Dr. Zadeh’s office with the subpoena.
(Id. at ¶¶ 11-12.) Peace and Kirby were accompanied
by two investigators from the DEA. (Id. ¶ 13.) At the
time, Dr. Zadeh was out of the office, so the investigators presented the subpoena to Dr. Zadeh’s medical
assistant. (Id. ¶¶ 19-22.) Plaintiffs contend that Dr.
Zadeh’s assistant asked for an opportunity to confer
with Dr. Zadeh’s attorney but was told that if she did
not turn over the records immediately, Dr. Zadeh
would lose his medical license. (Id. ¶ 24.) Accordingly,
Dr. Zadeh’s assistant provided the investigators with
the records requested in the subpoena. (Id. ¶ 27.)
Plaintiffs claim that Dr. Zadeh’s assistant did not give
anyone consent to search the premises, but Defendants Pease and Kirby, along with the two DEA investigators, nonetheless executed a thorough search of
the office. (Id. ¶¶ 24-26.) According to Plaintiffs, the
investigators searched, reviewed, and copied Dr. Zadeh’s medical records for several hours. (Id. ¶ 28.) Dr.
Zadeh’s lawyer eventually arrived and instructed the
investigators to leave the premises. (Id. ¶ 29.)
Plaintiff Zadeh and his patient, Plaintiff Jane
Doe, now bring suit against Defendants Robinson,
Pease, and Kirby in their individual capacities, as well
as Defendant Robinson in her official capacity. Plaintiffs allege that Defendants’ use of an administrative
subpoena to demand immediate production of medical
records without providing an opportunity for judicial
review violated the Fourth Amendment. Moreover,
Plaintiffs allege that Defendants’ conduct violated
their privacy and due process rights. Plaintiffs bring
suit pursuant to 42 U.S.C. § 1983 and seek monetary
damages. Plaintiffs also seek declaratory relief stating

73a

that certain Texas statutes and regulations are unconstitutional insofar that they allow the TMB to issue administrative subpoenas in violation of the
Fourth Amendment.
II. Discussion
Defendants make four arguments for dismissal:
First, Plaintiffs do not have standing to raise the
claim for declaratory relief. Second, this Court should
abstain from hearing Plaintiffs’ claims under the
Younger abstention doctrine. Third, Defendant Robinson, in her official capacity, has sovereign immunity.
Fourth, Defendants Robinson, Pease, and Kirby, in
their individual capacities, have qualified immunity.
The Court addresses each argument in turn.
A. Standing
Defendants contend that Plaintiffs lack the necessary standing to pursue declaratory relief. Generally,
standing requires plaintiffs to demonstrate (1) that
they have suffered an injury in fact, (2) that the injury
is fairly traceable to the defendant’s conduct, and (3)
that the injury can be redressed by a favorable decision. Lujan v. Defenders of Wildlife, 504 U.S. 555, 56061 (1992). To pursue a declaratory judgment, a plaintiff must allege not only a past injury, but also a likelihood of future injury. See Armstrong v. Turner Industries, Inc., 141 F.3d 554, 563 (5th Cir. 1998).
“[S]tanding to seek declaratory relief respecting a
challenged statute [is] not established merely by the
fact that the plaintiff had on a single previous occasion
been harmed by the statute's application, absent a realistic likelihood that the statute would in the future
be applied to the detriment of the particular plaintiff
in the action.” Brown v. Edwards, 721 F.2d 1442, 1447
(5th Cir. 1984) (citing City of Los Angeles v. Lyons, 461
U.S. 95, 103 (1983)).

74a

Accordingly, the question for the Court is whether
the allegations in the amended complaint support a
“realistic likelihood” that the Texas Medical Board
and its employees will again seek to serve an administrative subpoena instanter on Plaintiffs. With regard to Plaintiff Joseph Zadeh, the Court finds such a
likelihood. Dr. Zadeh is the subject of an ongoing administrative action brought by the TMB. (Defs.’ Mot.
Dismiss 2, Dkt. 11.) Moreover, since filing this action,
the TMB has announced that it is investigating multiple new complaints against Dr. Zadeh. (Pls.’ Opposed Mot. Conduct Exp. Disc. 2-3, Dkt. 10.) The
Court finds that Plaintiffs’ allegations support a finding that it is reasonably likely that the TMB will again
choose to subpoena Dr. Zadeh’s records. Accordingly,
there is a realistic likelihood that Dr. Zadeh will be
subject to future injury and, therefore, Dr. Zadeh has
standing to pursue declaratory relief.
However, Plaintiffs have not alleged sufficient
facts to allow the Court to infer that Plaintiff Jane Doe
is realistically likely to face future injury. According
to the amended complaint, her medical records have
already been subpoenaed and are in the possession of
the TMB and the DEA. (Pls.’ Am. Compl. ¶ 4, Dkt. 7.)
Nothing in the amended complaint supports an inference that the TMB is using its subpoena power to request additional documents or records regarding
Plaintiff Jane Doe, either from Dr. Zadeh or otherwise. Accordingly, the Court finds that there is not a
realistic likelihood that Plaintiff Jane Doe will be subject to future injury, and therefore, Plaintiff Jane Doe
does not have standing to pursue declaratory relief.
B. Younger Abstention Doctrine
Defendants next contend that Plaintiffs’ claims
are barred by the Younger abstention doctrine. In
Younger v. Harris, the Supreme Court required that

75a

federal courts abstain from enjoining a pending state
criminal proceeding. 401 U.S. 37 (1971). The Court
subsequently applied Younger “to non-criminal judicial proceedings when important state interests are
involved.” Middlesex County Ethics Comm. v. Garden
State Bar Ass’n, 457 423, 432 (1983). Dr. Zadeh is currently the subject of an administrative action by the
TMB before the State Office of Administrative Hearings for alleged violations of the Texas Medical Practices Act and the Texas Medical Board Rules related
to his prescription of controlled substances to patients
under his care in part, and involving, in part, evidence
acquired through the search at issue in this case. See
In Re Complaint Against Joseph Hassan Zadeh, D.O.,
S.O.A.H. Dk. No. 503-15-2821.DO (Mar. 12, 2015). Accordingly, Defendants contend that Younger requires
the Court to abstain from adjudicating Plaintiffs’
claims.
Younger does not apply to claims for monetary
damages. Lewis v. Beddingfield, 20 F.3d 123, 125 (5th
Cir. 1994) (“Younger abstention doctrine is not applicable to a claim for damages.”); Allen v. Louisiana
State Bd. of Dentistry, 835 F.2d 100, 104 (5th Cir.
1988) (“[R]equests for monetary damages do not fall
within the purview of the Younger abstention doctrine.”); Bishop v. State Bar of Texas, 736 F.2d 292,
295 (5th Cir. 1984) (“The district court also erred in
dismissing Bishop's claim for damages, a species of relief wholly unaffected by Younger.”) Accordingly, it
would be improper for the Court to abstain from hearing Plaintiffs’ claims for damages.
However, Plaintiff Zadeh’s claims for declaratory
relief are potentially subject to Younger abstention.
Three criteria are used to determine whether abstention is proper: “(1) the dispute should involve an ‘ongoing state judicial proceeding;’ (2) the state must

76a

have an important interest in regulating the subject
matter of the claim; and (3) there should be an ‘adequate opportunity in the state proceedings to raise
constitutional challenges.’” Wightman v. Texas Supreme Court, 84 F.3d 188, 189 (5th Cir. 1996) (quoting
Middlesex County Ethics Committee, 457 U.S. at 432).
In Perez v. Texas Medical Board., the Fifth Circuit
applied these criteria to a case where a physician assistant was subject to a disciplinary proceeding by the
Texas Physician Assistant Board. 556 F. App'x 341
(5th Cir. 2014). The circuit court held that Younger
abstention barred the physician assistant from suing
to enjoin the Texas Medical Board. On the first prong,
the court held that an administrative disciplinary
hearing before SOAH is an “ongoing state judicial proceeding” under Younger. Id. at 342. On the second
prong, the court held that “the State of Texas has a
strong interest in protecting the public through the
regulation and oversight of those practicing medicine
in the state.” Id. On the third prong, the court held
that the plaintiffs would have an adequate opportunity to raise their constitutional issues in state
court because Texas law provides for judicial review
of administrative decisions. Id. at 342-43.
The relevant facts in this case are similar to those
in Perez. First, Dr. Zadeh is subject to an ongoing administrative disciplinary proceeding before SOAH.
Such a proceeding counts as an “ongoing state judicial
proceeding.” Id. at 342. Second, the state has an important interest in regulating the practice of medicine.
Id. Finally, Plaintiff Zadeh has a right to appeal the
outcome of the pending state administrative proceeding in court. See Tex. Occ. Code. § 164.009. If Plaintiff
Zadeh appeals an adverse ruling to state court he has
the right to raise federal constitutional issues. See

77a

Tex. Gov’t Code § 200.174. Thus, the ongoing administrative proceeding against Plaintiff Zadeh provides
him an adequate opportunity to raise the constitutional issues alleged in this case. See Perez, 556 F. App'x at 342-43. The Court concludes that the Younger
abstention doctrine requires this Court to abstain
from adjudicating Plaintiff Zadeh’s claims for declaratory relief.
C. Sovereign Immunity
Defendant Mari Robinson, in her official capacity,
contends that she is protected by sovereign immunity.
“The Eleventh Amendment bars a suit against state
officials when ‘the state is the real, substantial party
in interest.’” Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 101 (1984). However, “[t]he Court
has recognized an important exception to this general
rule: a suit challenging the constitutionality of a state
official's action is not one against the State.” Id. Moreover, “when a plaintiff sues a state official alleging a
violation of federal law, the federal court may award
[relief] that governs the official's future conduct, but
not one that awards retroactive monetary relief.” Id.
at 102-103; see also Edelman v. Jordan, 415 U.S. 651
(1974) (quoting Ford Motor Co. v. Dep’t of Treasury,
323 U.S. 459, 464 (1945)) (“[W]hen the action is in essence one for the recovery of money from the state, the
state is the real, substantial party in interest and is
entitled to invoke its sovereign immunity from suit
even though individual officials are nominal defendants.”)
Here, Plaintiffs seeks both damages and declaratory relief. The Court concludes that the Eleventh
Amendment bars Plaintiffs from seeking monetary
damages from Defendant Robinson, in her official capacity. However, although sovereign immunity would
not bar Plaintiffs from suing Defendant Robinson, in

78a

her official capacity, for non-monetary relief, the
Court has concluded above that it should abstain from
hearing such claims.
D. Qualified Immunity
Defendants Robinson, Pease, and Kirby, in their
individual capacities, contend that they are protected
by qualified immunity. “The doctrine of qualified immunity protects government officials from civil damages liability when their actions could reasonably
have been believed to be legal.” Morgan v. Swanson,
659 F.3d 359, 370 (5th Cir. 2011). The burden rests
with the plaintiff to rebut the defendant’s qualified
immunity defense. Hathaway v. Bazany, 507 F.3d
312, 319 (5th Cir. 2007).
There are two steps to determining whether a defendant is protected by qualified immunity. See Saucier v. Katz, 533 U.S. 194 (2001) (endorsing the traditional two-step approach to assessing a qualified immunity defense). First, the court asks whether the official “violated a statutory or constitutional right.”
Morgan, 659 F.3d at 371 (quoting Ashcroft v. al-Kidd,
131 S. Ct. 2074, 2083 (2011)). Second, the court asks
whether “the right was ‘clearly established’ at the
time of the challenged conduct.” Id. (quoting al-Kidd,
131 S. Ct. at 2083). A court may, at its discretion, skip
the first step and begin its analysis by asking whether
the right in question was clearly established. See
Pearson v. Callahan, 555 U.S. 223, 236 (2009) (making Saucier’s two-step sequence discretionary). However, beginning the analysis by asking whether a right
was violated “is often beneficial.” Id.
The Court now turns to Plaintiffs’ Fourth Amendment claims and begins with the first step of the qualified immunity analysis by asking whether Plaintiff

79a

has alleged the violation of a Fourth Amendment
right.
1. Plaintiffs’ Fourth Amendment Claims
(Counts 1-4, 7 & 8)
a. Qualified Immunity Step One
The first step of the qualified immunity analysis
is to determine whether the plaintiff has alleged a violation of a constitutional right. Here, Plaintiffs contend that Defendants violated the Fourth Amendment
by signing and executing an administrative subpoena
instanter. Plaintiffs allege that the subpoena signed
by Defendant Robinson demanded immediate compliance and that Defendants Pease and Kirby refused
Plaintiff Zadeh’s assistant an opportunity to consult a
lawyer before complying with the subpoena. (Pl.’s Am.
Compl. ¶¶ 23-24, Dkt. 7.) Moreover, Plaintiffs allege
that Defendants Pease and Kirby searched Dr. Zadeh’s office without consent. (Id. ¶¶ 24-26.) In short,
Plaintiffs argue that Defendants violated the Fourth
Amendment by treating an administrative subpoena
as if it were a search warrant. (See id. ¶ 81.)
The Fourth Amendment protects “[t]he right of
the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures,” and provides that “no Warrants shall issue,
but upon probable cause.” U.S. CONST. amend. IV. The
Supreme Court has repeatedly held that “searches
conducted outside the judicial process, without prior
approval by judge or magistrate, are per se unreasonable under the Fourth Amendment—subject only to a
few specifically established and well-delineated exceptions.” Arizona v. Gant, 556 U.S. 332, 338 (2009)
(quoting Katz v. United States, 389 U.S. 347, 357
(1967)). One such exception is for administrative

80a

searches. See Camara v. Municipal Court of City &
County of San Francisco, 387 U.S. 523, 534 (1967).
Administrative searches are not immune from
Fourth Amendment scrutiny. As a general rule, when
an agency intends to execute a search pursuant to the
administrative search exception, it must provide an
opportunity for precompliance judicial review. City of
Los Angeles, Calif. v. Patel, 135 S. Ct. 2443, 2452
(2015) (citing Donovan v. Lone Steer, Inc., 464 U.S.
408 (1984); See v. Seattle, 387 U.S. 541 (1967)). A more
relaxed standard is applied to administrative
searches of “closely regulated” businesses. Patel, 135
S. Ct. at 2454. Under New York v. Burger, an agency
can search a closely regulated business without
providing an opportunity for precompliance judicial
review, but only if the search is necessary to further a
regulatory scheme that is informed by a substantial
government interest. 482 U.S. 691, 702-03 (1987).
Moreover, the regulatory scheme must provide “a constitutionally adequate substitute for a warrant.” Id. at
703 (quoting Donovan v. Dewey, 452 U.S. 594, 600
(1981).
Accordingly, the first step in assessing the constitutionality of an administrative search is to determine
whether the subject of the search is a closely regulated
business. A business is considered closely regulated if
it is subject to regulation so pervasive that its owners
have a “reduced expectation of privacy.” Id. at 701.
The Supreme Court has identified only four industries
that fall within the scope of this exception. Id. at 691
(automobile junkyards); Donovan, 452 U.S. at 594
(mining); United States v. Biswell, 406 U.S. 311 (1972)
(firearms dealing); Colonnade Catering Corp. v.
United States, 397 U.S. 72 (1970) (liquor sales). These
industries all “have such a history of government
oversight that no reasonable expectation of privacy . . .

81a

could exist for a proprietor over the stock of such an
enterprise. . . . [W]hen an entrepreneur embarks upon
such a business, he has voluntarily chosen to subject
himself to a full arsenal of governmental regulation.”
Marshall v. Barlow's, Inc., 436 U.S. 307, 313 (1978)
(internal citations omitted).
In City of Los Angeles v. Patel, the Supreme Court
held that hotels are not closely regulated businesses.
135 S. Ct. at 2454-57. In doing so, the Court made
clear “that the closely regulated industry . . . is the
exception” and cautioned against allowing “what has
always been a narrow exception to swallow the rule.”
Id. at 2455 (quoting Barlow’s, 436 U.S. at 313). The
Supreme Court allowed that “[h]istory is relevant
when determining whether an industry is closely regulated.” Id. But, the Court differentiated between industries with a history of regulation, generally, and
industries with a history of warrantless inspections,
specifically. Id. (holding that, for example, “laws obligating inns to provide suitable lodging to all paying
guests are not the same as laws subjecting inns to
warrantless searches”). The appropriate inquiry,
then, is to ask whether historically “government authorities could have viewed [the business’s] documents on demand without [the business’s] consent.”
Id. at 2456. A closely regulated industry is one with
such a consistent history of warrantless inspections
that an industry participant has “no reasonable expectation of privacy.” Id. at 2454 (quoting Barlow’s, Inc.
436 U.S. at 313).
The medical profession is not such an industry.
While the practice of medicine is admittedly subject to
significant oversight, there is no history of warrantless inspections of doctor’s offices. In fact, the prevailing tradition is quite to the contrary. There is a long

82a

history of recognizing the need for privacy in the medical profession out of respect for doctor-patient confidentiality. It strains credibility to suggest that doctors
and their patients have no reasonable expectation of
privacy. See, e.g., Sorrell v. IMS Health Inc., 131 S. Ct.
2653, 2668 (2011) (stipulating that “for many reasons,
physicians have an interest in keeping their prescription decisions confidential”); Ferguson v. City of
Charleston, 532 U.S. 67, 78 (2001) (acknowledging
that a medical patient has a “reasonable expectation
of privacy” and can assume that medical records “will
not be shared with nonmedical personnel without her
consent”); In re Vioxx Products Liab. Litig., No. MDL
1657, 2005 WL 2036797, at *3-4 (E.D. La. July 22,
2005) (tracing the history of doctor-patient confidentiality to fifth century B.C. and arguing that the erosion
of privacy protections in the medical field could reduce
the quality of medical care). Thus, the Court concludes
that the practice of medicine is not a closely regulated
industry. See Margaret S. v. Edwards, 488 F. Supp.
181, 216-17 (E.D. La. 1980) (holding that “the health
industry . . . is not a closely regulated industry” given
the “history of respect towards the recognized need for
privacy in the doctor-patient relationship”).
Given that the medical profession is not a closely
regulated industry for Fourth Amendment purposes,
the general rule for administrative searches applies:
“in order for an administrative search to be constitutional, the subject of the search must be afforded an
opportunity to obtain precompliance review before a
neutral decisionmaker.” Patel, 135 S. Ct. at 2452.
Plaintiffs allege that the TMB served Dr. Zadeh’s office with an administrative subpoena which demanded immediate compliance. Moreover, Plaintiff
Zadeh asserts that when the subpoena was served on
his office, his assistant was refused an opportunity to

83a

seek counsel before complying. Finally, Plaintiffs allege that Defendants, in addition to demanding production of certain medical records, also physically
searched Dr. Zadeh’s office. Accordingly, the Court
concludes that the allegations, taken as true and
viewed in a light favorable to Plaintiffs, suggest a
Fourth Amendment violation.
Even if the medical profession were to be considered closely regulated, the Court finds that Plaintiffs’
allegations, if proven, would still establish a Fourth
Amendment violation. A regulatory agency does not
have free license to execute warrantless searches on
closely regulated businesses. In New York v. Burger,
the Supreme Court set out a three part test for determining whether the warrantless search of a closely
regulated business is consistent with the Fourth
Amendment. 482 U.S. at 702-03. First, “there must be
a ‘substantial’ government interest that informs the
regulatory scheme pursuant to which the inspection is
made.” Id. at 702 (quoting Donovan, 452 U.S. at 602).
Second, “the warrantless inspections must be ‘necessary to further [the] regulatory scheme.’” Id. at 702-03
(quoting Donovan, 452 U.S. at 600). Third, the regulatory scheme must provide “a constitutionally adequate substitute for warrant.” Id. at 703 (quoting Donovan, 452 U.S. at 603). In order to meet the third
prong of the Burger test, the regulatory scheme must
provide for searches to be executed with sufficient
“certainty and regularity” that the business owner
“cannot help but be aware that his property will be
subject to periodic inspections.” Id. at 703 (quoting Donovan, 452 U.S. at 600, 603). Put differently, “the regulatory statute must perform the two basic functions
of a warrant: it must advise the owner of the commercial premises that the search is being made pursuant

84a

to the law and has a properly defined scope, and it
must limit the discretion of the inspecting officers.” Id.
Defendants claim that the search of Dr. Zadeh’s
office was conducted pursuant to two distinct sources
of statutory authority. First, Defendants point to the
TMB’s authority to issue subpoenas, created by Tex.
Occ. Code § 153.007 and implemented at 22 Tex. Admin. Code § 179.4(a) (collectively, “the TMB’s subpoena authority”). Second, Defendants point to the
TMB’s authority to inspect pain management clinics,
created by Texas Occupations Code § 168.00 et seq.
and implemented at 22 Texas Administrative Code §
195.3 (collectively, “the TMB’s inspection authority”).
The Court assumes that the TMB’s subpoena authority and the TMB’s inspection authority survive
the first two prongs of the Burger test. It is difficult to
dispute that the state has a substantial interest in
regulating and controlling the provision of prescription drugs and that doing so may require the use of
subpoenas and inspections. The Court focuses its inquiry on the much narrower question of whether
TMB’s subpoena authority and TMB’s inspection authority provide an adequate substitute for a warrant
as required by the third prong of the Burger test.
i. TMB’s Subpoena Authority
The TMB is afforded the authority by statute to
“issue a subpoena or a subpoena duces tecum to compel the attendance of a witness and the production of
books, records, and documents.” Tex. Occ. Code §
153.007(a). The TMB has interpreted this statute,
through implementing regulation, to require the following:
Upon the request by the board or board representatives, a licensee shall furnish to the
board copies of medical records or the original

85a

records within a reasonable time period, as
prescribed at the time of the request. ‘Reasonable time,’ as used in this section, shall mean
fourteen calendar days or a shorter time if required by the urgency of the situation or the
possibility that the records may be lost, damaged, or destroyed.
22 Tex. Admin. Code § 179.4(a).2 The Court concludes
that insofar that the alleged search of Dr. Zadeh’s office and records was conducted pursuant to the TMB’s
subpoena authority, the search was inconsistent with
the third prong of the Burger test.
First, the search of Dr. Zadeh’s office and records,
as alleged by Plaintiffs, exceeded the TMB’s subpoena
authority. Plaintiffs assert that Defendants Pease and
Kirby physically searched Dr. Zadeh’s office, despite
Dr. Zadeh’s assistant refusing to consent to the
search. (Pls.’ Am. Compl. ¶¶ 24-26, Dkt. 7.) The TMB’s
subpoena authority is limited to compelling the production of books, records, and documents or compelling the attendance of a witness. Tex. Occ. Code §

2

Plaintiffs repeatedly suggest that this regulation is an improper reading of the TMB’s statutory authority. Plaintiffs contend that the statute gives the TMB the limited power to issue
subpoenas, which by definition, allow for an opportunity to seek
judicial review prior to compliance. Accordingly, Plaintiffs argue
that the TMB has through the creative interpretation of its own
statute conferred upon itself the authority to conduct warrantless searches. However, the question of whether the TMB has
appropriately interpreted its statutory subpoena authority is not
relevant to the question of whether the overall regulatory scheme
survives Fourth Amendment scrutiny under Burger. Accordingly, the Court reads Tex. Occ. Code § 153.007(c) and 22 Tex.
Admin. Code § 179.4(a) together and inquires as to whether the
combined regulatory scheme serves as an adequate substitute for
a warrant.

86a

153.007(a). The TMB is not authorized to physically
search or inspect a doctor’s office.3 Id. Accordingly,
Plaintiffs’ allegations support a finding that the execution of the subpoena and subsequent search of Dr.
Zadeh’s office was done in contravention of, not pursuant to, the relevant regulatory scheme.
The third prong of the Burger test aspires to ensure that closely regulated businesses are put on notice that they will be subject to regular searches and
that their owners are able to assess whether those
searches are conducted in accordance with the law. A
regulatory scheme can only put a business owner on
notice of searches that fall within its parameters.
Given that the alleged search of Dr. Zadeh’s exceeded
the TMB’s subpoena authority it, therefore, must also
fail the third prong of the Burger test.

3

Plaintiffs would go further. They contend that the TMB is not
authorized to issue subpoenas instanter, arguing that 22 Tex.
Admin. Code § 179.4(a) requires the provision of a “reasonable
time period” to comply with a subpoena’s terms. The regulation
states that by default a “reasonable time period” means fourteen
calendar days, but the TMB may provide less time to comply “if
required by the urgency of the situation or the possibility that
the records may be lost, damaged, or destroyed.” From Plaintiffs’
perspective, demanding immediate compliance is inconsistent
with the regulation’s requirement that the subpoenaed party be
provided a reasonable amount of time to comply. However, the
Court finds that the issuance of a subpoena instanter which demands immediate compliance is consistent with the language in
the regulation allowing the TMB to provide less than fourteen
days to comply if there is a possibility that records will be lost,
damaged, or destroyed. Accordingly, the Court’s finding that the
alleged search exceeded the TMB’s authority is limited to the allegation that Defendants searched and inspected Dr. Zadeh’s office.

87a

Second, the TMB’s subpoena authority is purely
discretionary. The TMB has the authority to issue administrative subpoenas to compel the production of
medical records. Tex. Occ. Code § 153.007(c). The
TMB is allowed to choose which doctors to subpoena
and to do so at a frequency it determines. Accordingly,
TMB’s subpoena authority cannot meet the third
prong of the Burger test because it “fails sufficiently
to constrain . . . discretion as to which [businesses] to
search and under what circumstances.” Patel, 135 S.
Ct. at 2456. The inspection authority does not provide
clinics “certainty” that they will be subject to inspection with “regularity.” Burger, 482 U.S. at 703 (quoting Donovan, 452 U.S. at 600, 603). Therefore, the
Court concludes that the alleged search of Dr. Zadeh’s
office, insofar that it was conducted pursuant to the
TMB’s subpoena authority, is inconsistent with the
third prong of Burger and, thus, violated the Fourth
Amendment.
ii. TMB’s Inspection Authority
The TMB is afforded the authority by statute to
“inspect a pain management clinic, including the documents of a physician practicing at the clinic, as necessary to ensure compliance with this chapter.” Tex.
Occ. Code § 168.052. The implementing regulation to
the statute provides in part the following:
(b) Unless it would jeopardize an ongoing investigation, the board shall provide at least
five business days’ notice before conducting an
on-site inspection under this section.
(c) This section does not require the board to
make an on-site inspection of a physician’s office.
(d) The board shall conduct inspections of pain
management clinics if the board suspects that

88a

the ownership or physician supervision is not
in compliance with board rules.
22 Tex. Admin. Code § 195.3. The Court concludes
that insofar that the alleged search of Dr. Zadeh’s office was conducted pursuant to the TMB’s inspection
authority, the search was inconsistent with the third
prong of the Burger test.
First, the search, as alleged, exceeded the TMB’s
inspection authority. The parties dispute whether Dr.
Zadeh’s medical practice meets the definition of a pain
management clinic. The statute defines a pain management clinic as a “facility for which a majority of patients are issued on a monthly basis a prescription for
opioids, benzodiazepines, barbiturates, or carisoprodol, but not including suboxone.” Tex. Occ. Code
§ 168.001. The statute expressly exempts from the
definition any “clinic owned or operated by a physician
who treats patients within the physician’s area of specialty and who personally uses other forms of treatment, including surgery, with the issuance of a prescription for the majority of the patients.” Id. §
168.002(7).
Plaintiffs allege that Texas Occupations Code §
168 does not apply to Dr. Zadeh’s medical clinic because the clinic is exempt from the statutory definition of a pain management clinic. (Second Am. Compl.
¶ 49.) They further claim that no governmental
agency had reason to believe that Dr. Zadeh’s medical
office was a pain management clinic. (Id. ¶ 86.) Finally, Plaintiffs contend that the TMB had previously
provided Dr. Zadeh written instructions acknowledging that his office was not a pain management clinic
and instructing him not to register as a pain management clinic. (Id. ¶¶ 50, 85.) Moreover, Plaintiffs pled

89a

the specific facts necessary to indicate that Dr. Zadeh’s clinic was exempt under § 168.002(7), specifically that (a) Dr. Zadeh owns and operates the facility
in question, (b) the facility is not registered as a pain
management clinic, (c) Dr. Zadeh treats patients
within his area of specialty at the facility, and (d) he
personally uses other forms of treatment with the issuance of a prescription for a majority of the patients
treated at the facility. (Id. ¶ 48.) Accordingly, Plaintiffs’ allegations suggest that Dr. Zadeh’s medical office does not meet the statutory definition of a pain
management clinic.
Defendants argue that the TMB’s inspection authority allows inspections of “actual or suspected pain
management clinics.” (Def.’s Supp. Briefing 2, Dkt.
24.) However, the legal authorities cited by Defendants do not support their contention that the TMB has
the authority to inspect any facility it suspects is a
pain management clinic. See Tex. Occ. Code § 168.052
(authorizing inspections of pain management clinics,
not suspected pain management clinics); 22 Tex. Admin. Code § 195.3 (making no mention of suspected
pain management clinics). Yet, even if Defendants’ interpretation of the TMB’s inspection authority is correct, there is nonetheless a dispute between the parties as to whether the TMB suspected Dr. Zadeh’s
medical office met the definition of a pain management clinic. As discussed above, Plaintiffs pled that
the TMB had previously provided Dr. Zadeh written
instructions acknowledging that his clinic is exempt
from the definition of pain management clinic. (Second Am. Compl. ¶¶ 50, 85.) Accordingly, Plaintiffs assert in their complaint that “[n]o state governmental
agency had justifiable reason to believe Dr. Zadeh’s
medical facility was not exempt from pain management clinic registration based on Texas Occupations

90a

Code § 168.002(7).” (Id. ¶ 86.) Moreover, Plaintiffs
contend that the contents of the subpoena were inconsistent with an investigation of whether Dr. Zadeh
was illegally operating a pain management clinic.
Plaintiffs allege that the subpoena at issue requested
the records for sixteen patients (id. ¶ 23(b)) and that
in September 2013 Dr. Zadeh averaged approximately
ten patient visits per day (id. ¶ 44). However, to be
considered a pain management clinic a majority of the
patients on a monthly basis must be prescribed one of
four types of painkillers. Tex. Occ. Code § 168.001.
Plaintiffs allegations, therefore, suggest that the subpoena was unlikely intended to prove the facility’s status as a pain management clinic given that the records purportedly requested were not sufficient to
prove that a majority of the facility’s patients were being prescribed one of the four relevant painkillers. Accordingly, Plaintiffs’ allegations suggest that the TMB
did not suspect that Dr. Zadeh’s medical office constituted a pain management clinic.
The Court concludes that the search of Dr. Zadeh’s
office and records, as alleged by Plaintiffs, exceeded
the TMB’s inspection authority. As discussed above, a
statute cannot put a business on notice of a search
that falls outside its parameters. Therefore, Plaintiffs’
allegations support a finding that the TMB’s inspection authority did not serve as an adequate substitute
for a warrant for the search of Dr. Zadeh’s office, and
consequently, the search was inconsistent with the
third prong of the Burger test.
Second, the TMB’s inspection authority, like its
subpoena authority, is purely discretionary. The statute provides that the TMB has the discretion to inspect pain management clinics “as necessary to ensure compliance.” Tex. Occ. Code § 168.052. The implementing regulations provide that the TMB should

91a

inspect a facility if it “suspects that the ownership or
physician supervision is not in compliance with board
rules.” 22 Tex. Admin. Code § 195.3(d). However, the
regulation does not require the TMB to inspect pain
management clinics. Id. § 195.3(c). The TMB is allowed to choose which clinics to inspect and to do so at
a frequency it determines. Accordingly, TMB’s inspection authority cannot meet the third prong of the
Burger test because it “fails sufficiently to constrain . . . discretion as to which [businesses] to search
and under what circumstances.” Patel, 135 S. Ct. 2443
at 2456. The inspection authority does provide clinics
“certainty” that they will be subject to inspections
with “regularity.” Burger, 482 U.S. at 703 (quoting Donovan, 452 U.S. at 600, 603). Therefore, the Court concludes that the alleged search of Dr. Zadeh’s office, insofar that it was conducted pursuant to the TMB’s
subpoena authority, is inconsistent with the third
prong of Burger and, thus, violated the Fourth
Amendment.
In sum, the Courts finds that the alleged use of an
administrative subpoena instanter to search Dr. Zadeh’s office violated Plaintiff’s Fourth Amendment
rights. If, as the Court concludes, the medical profession is not a closely regulated industry, then the alleged search violated Plaintiff’s right to an opportunity for judicial review prior to complying with an
administrative subpoena. Alternatively, if the medical
profession is a closely regulated industry, then the alleged search violated Plaintiffs’ right to be put on notice that Dr. Zadeh’s office and records would be subject to regular inspections. Either way, the allegations, taken as true and viewed in a light favorable to
Plaintiffs, suggest the violation of a constitutional
right.

92a

b. Qualified Immunity Step Two
The second step of the qualified immunity analysis is to determine whether the constitutional right in
question was clearly established at the time of its alleged violation. For a right to be clearly established
there must be a “controlling authority or a robust consensus of persuasive authority . . . that defines the
contours of the right in question with a high degree of
particularity.” Morgan, 659 F.3d at 371 (quoting alKidd, 131 S. Ct. at 2084). The law must “so clearly and
unambiguously” prohibit the conduct in question that
“every reasonable official would understand what he
is doing violates the law.” Id. (quoting al-Kidd, 131 S.
Ct. at 2083). Put differently, “existing precedent must
have placed the statutory or constitutional question
beyond debate.” Id. (quoting al-Kidd, 131 S. Ct. at
2083). “The sine qua non of the clearly-established inquiry is ‘fair warning.’” Id. at 372 (quoting Hope v.
Pelzer, 536 U.S. 730, 741 (2002)). “[I]f judges . . . disagree on a constitutional question, it is unfair to subject
[government officials] to money damages for picking
the losing side of the controversy.” Id. (quoting Wilson
v. Layne, 526 U.S. 603, 618 (1999)).
Before proceeding, the Court notes that Plaintiffs
rely heavily throughout their briefing on the Supreme
Court’s ruling in City of Los Angeles v. Patel, 135 S.
Ct. 2443 (2015). However, the Supreme Court did not
rule in Patel until more than a year after the alleged
search at issue in this case. Accordingly, while Patel
guides the Court’s decision as to whether a constitutional right was violated, it plays no role in the Court’s
inquiry as to whether the right was clearly established at the time of its violation.
The rule that an agency must provide an opportunity for a party to challenge an administrative sub-

93a

poena prior to compliance is longstanding and unambiguous. See Donovan v. Lone Steer, Inc., 464 U.S. at
415 (“[A]lthough our cases make it clear that [an
agency] may issue an administrative subpoena without a warrant, they nonetheless provide protection for
a subpoenaed employer by allowing him to question
the reasonableness of the subpoena, before suffering
any penalties for refusing to comply with it, by raising
objections in an action in district court.”); City of Seattle, 387 U.S. at 544-45 (“It is now settled that, when
an administrative agency subpoenas . . . books or records, the Fourth Amendment requires that the subpoena . . . may not be made and enforced by the inspector in the field, and the subpoenaed party may obtain judicial review of the reasonableness of the demand prior to suffering penalties for refusing to comply.”). However, this rule does not apply to closely regulated industries. See Burger, 482 U.S. at 718-19.
Thus, if it was unclear whether the medical profession
was a closely regulated industry, then Defendants
could have reasonably believed they had no obligation
to provide an opportunity for precompliance review.
Accordingly, the Court begins by asking whether at
the time of the search of Dr. Zadeh’s office, it was
clearly established that the medical profession is a
closely regulated industry was clearly established.
The Texas Attorney General has clearly stated
that the medical profession is not a closely regulated
industry. Tex. Att’y Gen. Op. No. JC-274. In the opinion issued in 2000, the Attorney General advised that
the Texas State Board of Podiatric Medical Examiners
lacked the authority to conduct warrantless inspections of its licensees, because the medical profession is
not a closely regulated industry under the Fourth
Amendment. Id. The opinion reasoned that the medical profession “has no long history of warrantless state

94a

inspection.” Id. at 3 (internal quotation marks omitted) (quoting Margaret S. v. Edwards, 488 F. Supp.
181, 216 (E.D. La. 1980)). Moreover, it is an industry
“with a history of respect towards the recognized need
for privacy in the doctor-patient relationship.” Id.
(quoting Margaret S., 488 F. Supp. at 216). The opinion “found no evidence of pervasive regulation of the
practice of . . . medicine . . . nor any Texas case that
would furnish any basis for concluding that it should
be so characterized.” Id.
On the other hand, the Fifth Circuit has treated
the dental profession as a closely regulated industry.
In Beck v. Texas State Bd. of Dental Examiners, the
circuit court confronted a set of facts similar those before the Court now. 204 F.3d 629 (5th Cir. 2000). In
that case a dentist sued an investigator for the Texas
State Board of Dental Examiners, alleging that the investigator had conducted an illegal search when he inspected the dentist’s office and reviewed his records.
The Fifth Circuit held that the investigator was protected by qualified immunity because the warrantless
inspection did not violate a clearly established constitutional right. Id. at 638-39. The court did not explicitly address the question of whether the dental profession is a closely regulated industry. However, the
Court implicitly treated the dental profession as a
closely regulated industry by evaluating the allegations under Burger and concluding that the dentist
had no right to precompliance judicial review. See id.
at 639.
In light of the Fifth Circuit’s holding in Beck, the
Court concludes that Defendants could reasonably
have believed that the medical profession is considered a closely regulated industry and, thus, fairly concluded that the precompliance review requirement

95a

does not apply to the search of a medical office. Accordingly, the Court stipulates that, for the purpose of
the qualified immunity analysis, the medical profession is a closely regulated industry and turns to the
question of whether Plaintiffs have alleged the violation of a clearly established right under the more accommodating standard for these businesses.
In Burger, the Supreme Court set out the test for
determining whether the administrative search of a
closely regulated business survives Fourth Amendment scrutiny. 482 U.S. at 702-03. The third and final
prong of that test requires that the search of a closely
regulated business be executed pursuant to a statutory scheme that provides “certainty” that the business will be inspected with “regularity.” Id. at 703
(quoting Donovan v. Dewey, 452 U.S. at 603.) Burger
clearly establishes that the owner of a closely regulated business has a right to be put on notice that his
or her business “will be subject to periodic inspections
undertaken for specific purposes.” Id. (quoting Donovan v. Dewey, 452 U.S. at 600).
While it may be difficult to define the exact contours of the right created by the third prong of the
Burger test, the jurisprudence in this field is unambiguous in two regards. First, a search that is not conducted pursuant to a regulatory scheme cannot be
constitutional. The Supreme Court requires that regulatory statute “perform the . . . basic functions of a
warrant” by “advising the owner of the commercial
premises that the search is being made pursuant to
the law and has a properly defined scope.” Id. at 703.
A statute cannot put a business on notice of searches
that fall outside its scope or contravene its parameters. Second, the regulatory statute must do some-

96a

thing to “limit the discretion of the inspecting officers.” Id. (citing United States v. Biswell, 406 U.S. 311,
315 (1972).
For the reasons discussed in the Court’s analysis
under the first step of the qualified immunity inquiry,
the Court finds that search of Dr. Zadeh’s office, as
alleged by Plaintiffs, clearly violates the third prong
of the Burger test. See discussion supra pp. 14-17.
First, Plaintiffs allege that the search overstepped the
TMBs authority insofar that (a) the TMB’s subpoena
authority does not authorize it to physically inspect or
search a doctor’s office and (b) the TMB’s inspection
authority is inapplicable as Dr. Zadeh’s office does not
meet the statutory definition of a pain management
clinic. Second, the TMB’s subpoena and inspection authorities are purely discretionary. Nothing in the language of either statute creates certainty that a medical office will inspected with regularity. Accordingly,
the TMB’s subpoena and inspection authorities did
not put Dr. Zadeh on notice that his office would be
subject to regular inspections.
Defendants contend that even if the Court is right
that Plaintiffs’ allegations suggest a clear violation of
the third prong of the Burger test, the contours of that
right were not clearly established at the time of the
search of Dr. Zadeh’s office. In support of this contention, Defendants cite two cases: Ellis v. Mississippi
Dep't of Health, 344 F. App'x 43 (5th Cir. 2009) and
Beck, 204 F.3d 629.
In Ellis, the Fifth Circuit upheld the warrantless
inspection of a child care facility by the Mississippi
Department of Health, which was conducted pursuant
to a statute which “permits inspections by the agency
‘as often as deemed necessary.’” 344 F. App'x at 45 (citing Miss. Code. § 43-20-15). The statute in question
required that inspections of child care facilities “be

97a

made at least once a year.” Miss. Code. § 43-20-15. Accordingly, the statute puts the owners of child care facilities in Mississippi on notice that their businesses
will be subject to inspections with certainty and regularity and is therefore consistent with the third prong
of the Burger test. The TMB, however, is not required
to inspect or subpoena medical offices with any minimum frequency. The agency’s subpoena and inspection authorities are purely discretionary. As such, the
present case is easily distinguished from Ellis.
The Fifth Circuit’s holding in Beck proves more
troublesome. In that case, the court of appeals upheld
the warrantless inspection of a dental office. With regard to the third prong of the Burger test, the court
found the Texas Controlled Substances Act authorized on demand inspections and, thus, provided the
dentist with sufficient notice that his office would be
subject to periodic warrantless searches. Beck, 204
F.3d at 639.
The Fifth Circuit found that the inspection of the
dental office was constitutional despite the fact that
the Texas Controlled Substances Act does not provide
any certainty that dental offices will be inspected nor
does it limit the discretion of inspecting officers as to
when or under what circumstances an office will be
inspected. See Beck, 204 F.3d at 639 (upholding, as
consistent with the third prong of Burger, § 5.01(c) of
the Texas Controlled Substances Act which gives officers “the right to enter premises and conduct such
inspection at reasonable times upon stating his purpose and presenting to the owner . . . of the premises
appropriate credentials and written notice of his inspection authority”). This holding appears to be in tension with the third prong of Burger, which requires
that a regulatory scheme that allows warrantless inspections to place “appropriate restraints upon the

98a

discretion of the inspecting officers” such that the
business owner “cannot help but be aware that his
property will be subject to periodic inspections.”
Burger, 482 U.S. at 711, 705 n.16. Thus, in light of the
Fifth Circuit’s holding in Beck, Defendants reasonably
could have believed that a search conducted pursuant
to a purely discretionary inspection scheme was legal.
However, Beck provides no support for the proposition that a statute can serve as an adequate substitute for a warrant in a case where the search goes beyond what is authorized by the statute. In Beck, there
was no dispute as to whether the Texas Controlled
Substances Act authorized the inspection of the dentist’s office. At issue was simply whether the language
of the statute provided sufficient clarity to serve as a
substitute for a warrant. Here, Plaintiffs contend that
Defendants overstepped their statutory authority
when they physically searched and inspected Dr. Zadeh’s office and files. If true, Defendants’ conduct was
clearly inconsistent with Burger which requires that
a warrantless inspection at the very least be conducted pursuant to a regulatory scheme.
In sum, the Court concludes that at the time of the
search of Dr. Zadeh’s office, it was unclear whether
the medical profession should be considered a closely
regulated business. Moreover, it was also unclear to
what degree, if at all, a regulatory scheme allowing for
the warrantless inspection of a closely regulated business must limit the discretion of the inspecting officer.
But, it was clearly established that if a state official
executes a warrantless search of a closely regulated
business, the search must, at the very least, be conducted pursuant to a clear regulatory scheme. This
basic rule ensures that the owner of a business is
given fair notice that his or business may be subject to
warrantless inspection.

99a

Here, the allegations, taken as true and viewed in
a light favorable to Plaintiffs, suggest that the search
of Dr. Zadeh’s office was not conducted pursuant to
such a regulatory scheme and thus Plaintiffs had no
reason to suspect that Dr. Zadeh’s office would be subject to regular inspection. Thus, with regard to Plaintiffs’ Fourth Amendment allegations, the Court concludes that Defendants’ qualified immunity defense
should be denied. The Court, however, acknowledges
that the present inquiry is limited to assessing the
sufficiency of Plaintiffs allegations. Plaintiffs have alleged, but have not yet proven, a violation of their
clearly established rights under the Fourth Amendment. See McKee v. Lang, 393 F. App'x 235, 238 (5th
Cir. 2010) (“[W]e take the well-pleaded facts of the
complaint as true and construe those facts in the light
most favorable to the plaintiff when assessing a motion to dismiss based upon qualified immunity.”).
2. Plaintiffs’ Privacy Claims (Counts 5 & 6)
Plaintiffs also allege that Defendants violated
their constitutional and statutory rights to privacy.
Here, the Court exercises its discretion to begin with
inquiry of whether the right that was allegedly violated was clearly established at the time of the conduct in question.
Plaintiffs argue that Defendants (1) illegally provided DEA agents access to Dr. Zadeh’s records and
(2) illegally posted patient data on the TMB website.
Plaintiffs vaguely suggest that this conduct contravened a number of privacy protections under both
state and federal law. To the extent that Plaintiffs allege a violation of state privacy law, their allegations
do not support a cause of action under 42 U.S.C. §
1983, which provides a remedy for “the deprivation of
any federally protected rights.” Monell v. Dep't of Soc.
Servs. of City of New York, 436 U.S. 658, 658 (1978).

100a

To the extent that Plaintiffs allege a violation of the
federal constitutional right to privacy, the Court finds
that Plaintiffs have not shown that the relevant law
was clearly established at the time of the alleged violation. Plaintiffs do not cite a single federal authority
proscribing the sharing of medical records between a
state investigative agency and a federal law enforcement agency. Similarly, Plaintiffs do not cite a single
federal authority prohibiting the posting of redacted
patient information online. It may be that these allegations implicate constitutional privacy concerns.
However, to overcome a qualified immunity defense
the plaintiff “must be able to point to controlling authority . . . that defines the contours of the right in
question with a high degree of particularity.” Morgan,
659 F.3d at 371-72. Plaintiffs have not done so here.
Therefore, Defendants are entitled to immunity with
regard to Plaintiffs’ privacy allegations.
3. Plaintiff’s Due Process Claims
(Counts 9 & 10)
Finally, Plaintiffs allege that Defendants violated
their constitutional right to procedural due process.
(Pls.’ Am. Compl. ¶¶ 123-28, Dkt. 7.) Again, the Court
exercises its discretion to begin with the second step
of the qualified immunity analysis.
Plaintiffs argue that they “were entitled to notice
and a meaningful opportunity to be heard before Dr.
Zadeh’s medical records were searched and/or seized
by the TMB.” (Id.) Plaintiffs allegations here are identical to those raised as part of their Fourth Amendment claims, with the exception that Plaintiffs seek
redress under the Due Process Clause. However,
Plaintiffs do not cite a single authority creating a due
process right to precompliance review of an administrative subpoena. It may be that Plaintiffs’ allegations
implicate due process concerns in addition to Fourth

101a

Amendment concerns. However, the Court finds that
the relevant law was not clearly established at the
time of the alleged violation. Therefore, Defendants
are entitled to immunity with regard to Plaintiffs’ due
process allegations.
4. Defendants’ Request for a Rule 7 Reply
Finally, Defendants invoke Federal Rule of Civil
Procedure 7(a) and request that Plaintiffs be ordered
to file a reply pleading specific facts tailored to Defendants’ qualified immunity defense. “When a public
official pleads the affirmative defense of qualified immunity in his answer, the district court may, on the
official's motion or on its own, require the plaintiff to
reply to that defense in detail.” Schultea v. Wood, 47
F.3d 1427, 1433 (5th Cir. 1995). The Court concludes
that the factual allegations contained in the amended
complaint are sufficiently specific to allow for a fair
assessment of Defendants’ qualified immunity defense. Further detail would be of little assistance in
determining whether Plaintiffs have alleged the violation of a clearly established right. Accordingly, the
Court declines to exercise its discretion to order a Rule
7 reply.
III. Conclusion
The Court finds that (1) Plaintiff Jane Doe does
not have standing to pursue declaratory relief; (2)
Plaintiff Zadeh’s claims for declaratory relief are
barred by the Younger abstention doctrine; (3) the
doctrine of sovereign immunity prevents either Plaintiff from suing Defendant Robinson in her official capacity for damages; (4) the doctrine of qualified immunity requires the Court to dismiss Plaintiffs’ privacy claims and due process claims.

102a

Accordingly, the Court hereby GRANTS IN
PART AND DENIES IN PART Defendants’ Motion
to Dismiss and Request for Rule 7 Reply (Dkt. 11).
Plaintiffs’ claims for declaratory relief are hereby
DISMISSED WITHOUT PREJUDICE.
Plaintiffs’ claims against Defendant Mary Robinson, in her official capacity, for monetary damages are
hereby DISMISSED WITH PREJUDICE.
Plaintiffs’ privacy claims (Counts 5 & 6) are
hereby DISMISSED WITH PREJUDICE.
Plaintiffs’ due process claims (Counts 9 & 10) are
hereby DISMISSED WITH PREJUDICE.
SIGNED on March 29, 2016.
[handwritten signature]
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

